BUREAU OF ALCOHOL, TOBACCO, 

  FIREARMS AND EXPLOSIVES

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2010

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 11-13

             January 2011

                BUREAU OF ALCOHOL, TOBACCO,

                  FIREARMS AND EXPLOSIVES

                ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2010


                  OFFICE OF THE INSPECTOR GENERAL

                     COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) for the fiscal
years (FY) ended September 30, 2010, and September 30, 2009. Under the
direction of the Office of the Inspector General (OIG), Cotton &
Company LLP performed the audit in accordance with U.S. generally
accepted auditing standards. The audit resulted in an unqualified opinion on
the FY 2010 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. The FY 2009 financial
statements audit was performed by KPMG LLP and also received an
unqualified opinion (OIG Report No. 10-13).

       Cotton & Company LLP also issued reports on internal control and on
compliance and other matters. For FY 2010, the Independent Auditors’
Report on Internal Control over Financial Reporting identified one significant
deficiency. The significant deficiency related to inadequate funds
management controls. Specifically, ATF needs to improve its internal
controls to ensure that undelivered orders are valid, accounts payable
transactions are calculated correctly, and related account balances are
accurate and complete. In the FY 2010 Independent Auditors’ Report on
Compliance and Other Matters, the auditors identified no instances of non-
compliance with applicable laws and regulations and the Federal Financial
Management Improvement Act of 1996.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the Department’s financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the Department’s financial management systems
substantially complied with the Federal Financial Management Improvement
Act of 1996, or conclusions on compliance with laws and regulations. Cotton
& Company LLP is responsible for the attached auditors’ reports dated


                                       i

November 2, 2010, and the conclusions expressed in the reports. However,
our review disclosed no instances where Cotton & Company LLP did not
comply, in all material respects, with U.S. generally accepted government
auditing standards.




                                    ii

              BUREAU OF ALCOHOL, TOBACCO,

                FIREARMS AND EXPLOSIVES

              ANNUAL FINANCIAL STATEMENTS

                    FISCAL YEAR 2010


                           TABLE OF CONTENTS

                                                                               PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS' REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 29


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ............ 31


  REPORT ON COMPLIANCE AND OTHER MATTERS................................. 37


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS .................................................... 41


  CONSOLIDATED STATEMENTS OF NET COST ..................................... .42


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............. 43


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 44


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ............................. 46


  NOTES TO THE FINANCIAL STATEMENTS............................................ 47


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES....................... 86


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

  OF ACTIONS NECESSARY TO CLOSE THE REPORT............................... 91

This page intentionally left blank.

Management’s Discussion and Analysis 

              Unaudited 





                -1-
This page intentionally left blank.





                -2-
                            U. S. Department of Justice

                Bureau of Alcohol, Tobacco, Firearms and Explosives

                      Management’s Discussion and Analysis

                                    (unaudited)


MISSION

We are ATF.

ATF is a unique law enforcement agency in the United States Department of Justice that protects our
communities from violent criminals, criminal organizations, the illegal use and trafficking of firearms,
the illegal use and storage of explosives, acts of arson and bombings, acts of terrorism, and the illegal
diversion of alcohol and tobacco products.

We partner with communities, industries, law enforcement, and public safety agencies to safeguard the
public we serve through information sharing, training, research, and use of technology.

VISION

We Are ATF - A dedicated team securing America’s future by accomplishing a critical mission today.
We Protect America.
We Protect Your Community.

VALUES

We value our people and those we serve.

We value professionalism, integrity, diversity, commitment, innovation, and excellence.

We value partnerships that promote the safety of our communities.


ORGANIZATIONAL STRUCTURE
ATF’s national headquarters, located in Washington, DC, includes offices that develop major policies
and programs in accordance with the applicable laws and regulations that ATF enforces. ATF’s
executive structure consists of the Deputy Director, Executive Assistant Director, Chief Counsel,
Chief of Staff, and the Assistant Directors for Field Operations; Enforcement Programs and Services;
Strategic Intelligence and Information; Professional Responsibility and Security Operations; Public
and Governmental Affairs; Management/Chief Financial Officer; Science and Technology/Chief
Information Officer; and Training and Professional Development. These executives form the
Bureau’s Strategic Leadership Team and Investment Review Board. The Investment Review Board is
comprised of the Assistant Directors and Chief Counsel and is chaired by the Deputy Director. The
Board oversees and approves large investments such as buildings, relocations, IT investments, and
equipment. The Offices of the Chief of Staff, Ombudsman, the Executive Assistant for Equal
Opportunity, Disclosure Office, and the Office of Strategic Management are key components of the
Office of the Director.



                                                 -3-
ATF has offices throughout the United States, including Puerto Rico, the Virgin Islands and Guam.
ATF also has a presence at U.S. embassies in El Salvador, Colombia, Mexico, and Canada; U.S.
Consular offices in Tijuana, Ciudad Juarez, Hermosillo, Guadalajara and Monterrey, Mexico; Interpol
Headquarters in Lyon, France; and at Europol in The Hague, Netherlands, to address the trafficking of
firearms, explosives, alcohol, and tobacco. ATF has several employees in Iraq providing explosives
technical support for the US Embassy, Baghdad, and the Department of Defense. The field structure
is comprised of 25 field divisions strategically located throughout the United States, with a single
executive heading each office and having responsibility for all law enforcement and industry
regulation within the geographical area.



                                    ORGANIZATION CHART




                                               -4-
FINANCIAL STRUCTURE

ATF’s primary funding source is an annual appropriation, which funds salaries, operating expenses,
property and equipment, as authorized by law. ATF may also receive appropriations to cover specific
needs, such as expenses incurred as the result of the relocation of law enforcement frequencies in the
radio spectrum, ATF’s support of the rebuilding of Iraq, and construction of the National Center for
Explosives Training and Research; however, these appropriations are situational in nature and occur as
the need arises. In addition, ATF has agreements with other Federal organizations as well as the
Department of Justice Assets Forfeiture Fund, to reimburse authorized ATF expenses.

ATF allocates funding among its directorates which are responsible, along with a central budget
office, for expending against this funding.

ANALYSIS OF FINANCIAL STATEMENTS

ATF prepares the principal financial statements required by OMB Circular A-136, Financial
Reporting Requirements.

The Consolidated Balance Sheet is a presentation of ATF’s assets, liabilities, and net position as of the
end of the fiscal year. Assets represent the amounts of future economic benefits that are owned or
managed by the Bureau. Liabilities are the amounts that are owed by the Bureau and net position
comprises the unexpended appropriations and the cumulative results of operation.

Total assets as of September 30, 2010 and 2009, were $561.7 and $500.7 million, respectively. The
increase of approximately 12.2 percent is primarily due to an increase in the Cash and Monetary
Assets of $41.3 million from project – generated proceeds from undercover operations, an increase in
Accounts Receivable of $9.7 million, and Property, Plant and Equipment of $10.4 million. The Fund
Balance with the Treasury represents approximately 46.5 percent of assets in FY 2010 and 51.4
percent in FY 2009.

Total liabilities as of September 30, 2010 and 2009, were $330.3 million and $283.9 million,
respectively. The increase of $46.4 million or 16.3 percent is primarily due to increase in liabilities
from undercover operations of $41.3 million.

The Consolidated Statement of Net Cost presents the gross operating costs and any related exchange
revenue for the reporting period. The bottom line is the net cost to operate and run the programs of the
Bureau for the fiscal year. ATF records the full cost of all transactions, including imputed costs
absorbed by other entities. The net costs of operations as of September 30, 2010 and 2009 were
$1,181.9 million and $1,106.1 million, respectively, an increase of approximately $75.9 million or 6.9
percent. The increase is primarily due to an increase in salaries and benefits expenses of $49.8 million
or 6.6 percent and an increase in Commercial Contracts of $33.5 million or 17.5 percent.

The Consolidated Statement of Changes in Net Position presents both the net cost of operations and
how those costs were financed, whether from appropriations, transfers, or imputed financing.
Unexpended appropriations as of September 30, 2010 and 2009 were $202.2 million and $183.6
million, respectively, the increase is approximately 10.1 percent. The Net Position as of September



                                                  -5-
30, 2010 and 2009 was $231.4 million and $216.8 million, respectively, with an increase of
approximately 6.8 percent. The increases were due primarily to the transfer in of $6.8 million
multiyear funds for the Spectrum Relocation Fund (SRF) and a SW Border Supplemental
appropriation of $37.5 million, and $9.9 million transfer out of fiscal years 2005 and 2006 funds.

The Combined Statement of Budgetary Resources presents how resources are received by ATF,
whether through appropriations, other authorities, or reimbursements and recoveries. The Combined
Statement of Budgetary Resources also provides the status of those resources, the amount that is
obligated, and whether the source of those obligations is direct or reimbursable funds. Obligations
incurred as of September 30, 2010 and 2009 were $1,258.1 million and $1,226.6 million, respectively.
The increase of approximately 2.6 percent is primarily due to an increase in obligations related to
funds from the American Recovery and Reinvestment Act of $2 million, the Southwest Border of $12
million, the National Center for Explosives Training and Research (NCETR) project of $5 million and
various supplemental funds of $10 million.

The Combined Statement of Custodial Activity presents non-exchange revenue consisting of fees and
licenses that ATF collects and distributes. Non-exchange revenues are unavailable for use by ATF
and are transferred to the General Fund of the Treasury. The primary sources of these collections are
firearms and explosive licenses and import fees. The total custodial revenue as of September 30, 2010
and 2009 was $14.7 million and $14.5 million, respectively. The increase of approximately 1.6
percent is primarily due to an increase in the application volume, and related payments, for National
Firearms Act (NFA) transfers and/or registration of NFA class weapons.




                                                -6-
                                   Table 1. Source of ATF Resources
                                         (Dollars in Thousands)


                          Source                                  FY 2010         FY 2009      Change%
Earned Revenue                                                $       91,159 $       55,556      64%
Budgetary Financing Sources
  Appropriations Received                                          1,158,272       1,068,215     8%
  Appropriations Transferred-In/Out                                   (3,318)        16,647     -120%
Other Financing Sources
  Transfers-In/Out Without Reimbursement                               2,407          2,173      11%
  Imputed Financing from Costs Absorbed by Others                     39,264         33,126      19%
Total                                                         $ 1,287,784       $ 1,175,717      10%




                               Table 2. How ATF Resources are Spent
                                        (Dollars in Thousands)


                   Strategic Goal (SG)                            FY 2010        FY 2009       Change%
SG 1: Prevent Terrorism and Promote the Nation’s Security

                                                  Net Cost $           7,185 $        8,321     -14%
SG 2: Prevent Crime, Enforce Federal Laws, and Represent
the Rights and Interests of the American People
                                                Gross Cost         1,265,934       1,153,318
                                       Less: Earned Revenue           91,159          55,556

                                                   Net Cost        1,174,775       1,097,762     7%


                                           Total Gross Cost        1,273,119       1,161,639
                                Less: Total Earned Revenue            91,159          55,556
                              Total Net Costs of Operations $ 1,181,960         $ 1,106,083      7%




                                               -7-
2010 Financial Highlights
ATF activity primarily supports the Department’s goal to Prevent Crime, Enforce Federal Laws, and
Represent the Rights and Interests of the American People. However, many of our core activities,
including ATF participation on task forces to prevent terrorism, also support the Department’s goal to
Prevent Terrorism and Promote the Nation’s Security.

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security, 1% of ATF’s Net
Costs support this Goal, which includes ATF activity in the Joint Terrorism Task Force and the
Terrorist Device Analysis Center. The Goal 1 net cost for FY 2010 and FY 2009 were $7.2 million
and $8.3 million, respectively, a decrease of approximately 13.7 percent, which comprises only 1%
percent of total net cost and therefore is not material in nature.

STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People, 99% of ATF’s Net Costs support this Goal, which includes all
ATF activities except those reported in Strategic Goal 1. The Goal 2 net costs for FY 2010 and FY
2009 were $1,174.8 million and $1,097.8 million, respectively, an increase of approximately 7
percent. This increase is not material in nature.

PERFORMANCE INFORMATION

Data Reliability And Validity

The ATF views data reliability and validity as critically important in the planning and assessment of
performance. As such, this document includes a discussion of data validation, verification, and any
identified data limitations for each performance measure presented. ATF ensures that data reported
meets the following criteria:

      At a minimum, performance data are considered reliable if transactions and other data that support
      reported performance measures are properly recorded, processed, and summarized to permit the
      preparation of performance information in accordance with criteria stated by management.
      Performance data need not be perfect to be reliable, particularly if the cost and effort to secure the best
      performance data possible will exceed the value of any data so obtained.




                                                     -8-
FY 2010 REPORT ON SELECTED RESULTS
STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws and Represent the Rights and
Interests of the American People.

PROGRAM: Reduce Violent Firearms Crime
Background/Program Objectives: Violent firearms crime remains a significant and complex
domestic problem, fueled by a variety of causes that vary from region to region. The common
element, however, is the relationship between firearms violence and the unlawful diversion of firearms
out of commerce into the hands of prohibited persons. ATF’s unique statutory responsibilities and
assets, including technology and information, are focused under the agency’s Integrated Violence
Reduction Strategy (IVRS) to remove violent offenders, including gang members, from our
communities; keep firearms from those who are prohibited by law from possessing them; discourage,
prohibit, and interrupt illegal weapons transfers in accordance with the law; and prevent firearms
violence through community outreach.

The violence fueled by firearms trafficking is demonstrated in the crisis on our Southwest Border.
Our firearms trafficking interdiction strategy complements our continued focus on the deployment of
resources to specific localities where there is a high incidence of gang and gun violence. Through
firearms trafficking interdiction efforts, ATF decreases the availability of illicit firearms and
recommends for prosecution those who illegally supply firearms to prohibited possessors. Violent
gang members are often involved in firearms trafficking, both for potential profit and in furtherance of
drug trafficking and other crimes. Recent trends have shown an increase in the number of firearms
recovered in Mexico, and these firearms fuel the growing violence along the border, including the
brutal murders of hundreds of law enforcement officers and government officials. ATF’s efforts to
reduce violent firearms crime include:

   •	 ATF’s Southwest Border initiative, Project Gunrunner, is a focused subset of ATF’s broader
      firearms trafficking initiative, addressing U.S.-based firearms trafficking that is fueling the
      violence along the Southwest Border and nationwide. Project Gunrunner attacks the prevalence
      of illegal firearms available in the Southwest Border region and stems the flow of firearms to
      criminal organizations in Mexico. Additionally, ATF enhances its efforts along the Southwest
      Border with an integrated violent crime and gang reduction program with initiatives like the
      Violent Crime Impact Teams and Regional Area Gang Enforcement Teams.

   •	 Partnering with law enforcement agencies and prosecutors at all levels to develop focused
      strategies to investigate, arrest, and prosecute violent offenders, persons prohibited from
      possessing firearms, domestic and international firearms traffickers, violent gangs, and others
      who attempt to illegally acquire or misuse firearms.

   •	 Assisting the law enforcement community in identifying firearms trafficking trends and
      resolving violent crimes by providing automated firearms ballistics technology, tracing guns
      used in crimes, and developing advanced firearms investigative techniques.




                                                 -9-
   •	 Ensuring that only qualified applicants who meet the eligibility requirements of the law enter
      the regulated firearms industry by employing appropriate screening procedures prior to
      licensing.

   •	 Inspecting firearms dealers to identify any illegal purchases or diversion of firearms to
      criminals and to ensure the accuracy of records used in tracing firearms. ATF ensures that
      firearms industry members comply with the Gun Control Act, the National Firearms Act, and
      the Arms Export Control Act.

   •	 Keeping restricted firearms such as machine guns out of the hands of prohibited persons by
      performing criminal records checks on applicants. ATF maintains the accuracy and integrity
      of the National Firearms Registration and Transfer Record so that the location and ownership
      of restricted firearms are kept current.

   •	 Ensuring that only firearms that are legally importable under ATF and State Department rules
      are imported into the United States and are properly marked and recorded by the importer for
      sale domestically.

   •	 Collaborating with schools, law enforcement agencies, community organizations, and the
      firearms industry to implement educational programs which help to reduce firearms violence.

   •	 Informing the public and firearms industry about ATF policies, regulations, and product safety
      and security, so that they can better comply with the law. To do so, ATF uses a variety of
      communication methods such as the Internet, trade and community publications, seminars, and
      industry meetings.

The following represent examples of ATF’s success in “Enforcing Federal Laws and Representing the
Rights and Interests of the American People:”

   •	 In FY 2010, ATF collected approximately $13.6 million dollars in license fees, registration
      fees, Special Occupational Tax Stamps, and National Firearms Act taxes. This amount does
      not include fines, penalties and restitutions and is net of refunds.

   •	 In FY 2010, ATF recommended 11,452 criminal cases against 17,142 defendants for
      prosecution – 1,467 of those cases involve 4,620 defendants engaged in gang related criminal
      conduct. Of the defendants recommended for prosecution, nearly 62% are previously
      convicted felons and 84% have prior arrest records.

   •	 In addition, in FY 2010, ATF arrested 9,226 defendants, which led to 9,389 indictments and
      7,246 convictions. As a result, 6,192 defendants were sentenced to prison in FY 2010 and
      received an average sentence of 201 months, excluding the 61 defendants who received life
      sentences and seven who received death sentences.

   •	 In FY 2010 we initiated the following criminal investigations:

       o	 21,910 firearms cases, including illegal possession and firearms trafficking;



                                               -10-
        o	 3,301 arson and explosives cases, including bombing and attempted bombing cases; and,
        o	 141 alcohol and tobacco diversion cases.

   •	 Since the inception of Project Gunrunner in FY 2006, ATF has seized 9,700 firearms and
      nearly 1.2 million rounds of ammunition destined for the Southwest Border. ATF has arrested
      1,735 suspects and obtained evidence that indicates 18,714 firearms were trafficked to Mexico
      by organizations investigated by ATF.

   •	 In FY 2010, ATF has seized 2,970 firearms and 407,000 rounds of ammunition destined for the
      Southwest Border. ATF has arrested 314 suspects and obtained evidence that 4,221 firearms
      were trafficked to Mexico by organizations investigated by ATF.

   •	 In FY 2010, ATF referred 206 cases for prosecution related to the Southwest Border, under
      Project Gunrunner.

   •	   In FY 2010, there were 7,311 retail dealers and pawnbrokers who held Federal Firearms
        Licenses (FFLs) in Texas, Arizona, New Mexico, and Southern California. In 2010, ATF
        inspected 58 percent of the FFLs in those four states.
ATF’s Internet site contains supporting documentation and reference materials on ATF programs. It
can be accessed at http://www.atf.gov.

Performance Measure: Percentage of firearms investigations resulting in a referral for criminal
prosecution.

FY 2001 Actual Performance – N/A
FY 2002 Actual Performance – N/A
FY 2003 Actual Performance – N/A
FY 2004 Actual Performance – N/A
FY 2005 Actual Performance – 55%
FY 2006 Actual Performance – 57%
FY 2007 Actual Performance – 57%
FY 2008 Actual Performance – 60%
FY 2009 Actual Performance – 59%
FY 2010 Target – 60%
FY 2010 Actual Performance – 56%




                                              -11-
                              Percentage of Firearms Investigations Resulting in a Referral for
                                                   Criminal Prosecution

                                                             Actual      Target


                                                                                                     60%
                                                              55%     57%    57%     60%     59%
                                                                                                     56%
                               0%      0%      0%      0%

                             FY 01 FY 02 FY 03 FY 04 FY 05 FY 06 FY 07 FY 08 FY 09 FY 10




Data Definitions: This measure reflects the percentage of investigations within ATF’s firearms
program area in which a defendant was referred for criminal prosecution. This measure is based on the
premise that ATF is the Federal law enforcement agency with unique expertise and statutory authority
to enforce Federal firearms laws, and that ATF reduces firearms violence through investigations and
their resulting law enforcement consequences (specifically the referral for criminal prosecution and the
ensuing incapacitation of criminals under these statutes). 1 More effective enforcement of Federal
firearms laws contributes to disrupting criminal activity, deterring violent crime, and safeguarding the
legitimate firearms industry from exploitation by criminals. This measure allows ATF to gauge the
impact of applying its Federal statutory authority and resources to a national strategy to fight violent
crime in our communities – targeting those who commit the violence and those who facilitate their
commission by supplying firearms through straw purchases, unlicensed dealing, theft from Federal
firearms licensees and interstate carriers, and other illegal means.

Data Collection and Storage: The data source is ATF’s National Field Office Case Information
System (NFOCIS), which is ATF’s integrated and centralized data management solution allowing real
time monitoring and oversight of all criminal enforcement activities in the field.

Data Validation, and Verification: There is an ongoing quality assurance and case management
program in place within ATF which includes the required review and approval of case information by
ATF field managers. The data are subsequently verified through ATF’s inspection process, performed
internally by the Office of Professional Responsibility and Security Operations. The internal
inspections occur on a four year cycle and are performed at each ATF field office and division.

Data Limitations: ATF investigations are often complex and time consuming in nature, and often
span multiple years from initiation through closure. The data used to calculate this percentage are
based on the date investigations are closed, and are therefore likely to include investigations that have
spanned previous time periods.

Discussion of FY 2010 Results: ATF’s target goal of referring for criminal prosecution 60% percent
of its investigations within the firearms programs area fell short by 4%. However, during this reporting

1
  “Although studies that focus exclusively on violent offenders are rare, empirical evidence about violent offending can be found in
cross-sectional and longitudinal studies of general offending careers. The results from this research generally support the conclusion that
incapacitation has nontrivial consequences for the control of violent crime.” Commission on Behavioral and Social Sciences and
Education: Understanding and Preventing Violence, Volume 4: Consequences and Control (1994).




                                                                -12-
period ATF increased its commitment to Southwest Border firearms interdiction initiatives, detailing
80 special agents, investigators, and intelligence personnel to the Phoenix/Tucson Gunrunner Impact
Teams (GRIT) from May to August 2010. ATF is the Federal law enforcement agency with unique
expertise and statutory authority to enforce Federal firearms laws. Nearly meeting the 60% goal while
simultaneously expanding its commitment to investigating and disrupting Southwest border firearms
trafficking and related violent crime demonstrates that ATF has a significant impact on reducing
firearms violence through investigations and the referral of criminals for prosecution.

ATF has been at the forefront of efforts across the country to reduce violent crime involving firearms.
ATF is the lead Federal agency in these efforts, actively initiating investigations against violent
offenders and firearms traffickers and providing key services to its law enforcement partners. The
following case examples highlight ATF’s FY 2010 efforts:


   •	 Phoenix Field Division: A subset of ATF’s broader firearms enforcement program, Project
      Gunrunner is ATF’s comprehensive firearms trafficking interdiction strategy to disrupt the
      illegal flow of firearms into Mexico, and to impact the firearms violence along the Southwest
      border associated with Mexican drug trafficking organizations and cartels. In May 2010, ATF
      launched a Gun Runner Impact Team (GRIT), an initiative under Project Gunrunner, involving
      a 100-day deployment of supplemental ATF resources to the Phoenix Field Division to disrupt
      and dismantle the southbound supply of firearms to Mexican drug trafficking organizations.

       The GRIT initiative brought more than 80 experienced ATF personnel from around the country
       to Arizona and New Mexico. GRIT special agents initiated 174 firearms trafficking-related
       criminal investigations and seized approximately 1,300 illegally-trafficked firearms and 71,000
       rounds of ammunition, along with drugs and currency. ATF’s industry operations investigators
       conducted more than 800 federal firearms licensee compliance inspections.

       The Phoenix GRIT was concluded in September 2010. As of September 17, 2010, 96
       defendants have been arrested, charged, convicted or sentenced since June 2010 on gun-related
       charges. The majority of defendants include violent felons, drug traffickers who use weapons,
       and those trafficking firearms to Mexico. Cases involved more than 370 guns, many of them
       AK-47 style rifles and other “weapons of choice” of drug cartels, and hundreds of thousands of
       rounds of ammunition smuggled into or destined for Mexico.

Recent examples of firearms prosecutions in the District of Arizona:

       o	 U.S. v. Arizmendiz et al. : In July and August, two leaders of a firearms trafficking
          conspiracy that supplied at least 112 firearms, mostly AK-47 style, to the Sinaloa
          Cartel, were sentenced. Alejandroi Medrano, 23, and Hernan Ramos, 22, both of
          Mesa, Arizona, were sentenced to 46 and 50 months in prison, respectively, for
          leading a conspiracy involving 10 defendants who straw purchased firearms from gun
          dealers in Phoenix and Tucson, Arizona, in order to supply them to a member of the
          Sinaloa Cartel.

       o	 U.S. v. Gaeda et al. : On June 3, following an ATF investigation involving more than
          250,000 rounds of ammunition, ATF agents arrested Emmanuel Casquez, Elias



                                                -13-
       Vasquez, and Charice Gaeda for unlawfully exporting ammunition to Mexico. Agents
       had learned the three were purchasing vast quantities of ammunition and searched a
       vehicle headed for the border port at Nogales and recovered 9,500 rounds of
       ammunition; a search of a residence ensued and an additional 27,000 rounds of
       ammunition were recovered.

   o	 U.S. v. Ibarra et al. : In July, a 20-count indictment announced the charging of 10 

      straw purchasers, recruited by then 17-year-old Francisco Ibarra, to buy at least 25 

      firearms. ATF believes the firearms were illegally-trafficked into Mexico.


   As a result of the 2010 emergency supplemental appropriation for border security, ATF
   received $37.5 million to expand Project Gunrunner. With this funding, ATF will establish
   seven new firearms trafficking groups along traditional and newly-discovered firearms
   trafficking routes and hubs in Atlanta, Georgia; Dallas and Brownsville, Texas; Las Vegas,
   Nevada; Miami, Florida; Oklahoma City, Oklahoma; and Sierra Vista, Arizona.

•	 Tampa Field Division: Orlando, Florida - In September 2010, ATF, U.S. Immigration and
   Customs Enforcement (ICE) and the U.S. Attorney, Northern District of Florida, announced
   the initial results of Operation Castaway, an intensive and wide-ranging Organized Crime and
   Drug Enforcement Task Force (OCDETF) firearms trafficking investigation conducted by
   ATF, ICE, the Orange County Sheriff’s Office, the Osceola County Sheriff’s Office, the
   Brevard County Sheriff’s Office, and the Miami-Dade Police Department. This was an ATF
   led investigation initiated from analysis conducted by the ATF Field Intelligence Group, based
   on information derived from ATF Industry Operations referrals, and National Tracing Center
   trace and multiple sales data. ATF describes Operation Castaway as the most significant
   firearms trafficking investigation in Central Florida history.

   According to court documents, a group of defendants connected to Hugh Crumpler, III, were
   involved in a major international gun trafficking operation. Crumpler has trafficked, for several
   years, more than 1,000 firearms to various groups and defendants who exported these weapons
   all over Central and South America and to Puerto Rico. The defendants trafficked in Glock
   semi-automatic handguns, Fabrique Nationale Herstal 5.7x28 mm semi-automatic handguns,
   and AR-15 styled short-barreled rifles, among other firearms.

   Firearms like those involved in this investigation are often smuggled through Honduras and
   other Central and South American countries before being used in violent crimes in Mexico and
   other countries in the region. A number of the firearms trafficked by the defendants in
   Operation Castaway have been linked to violent crimes around the world. Several firearms
   trafficked by Crumpler and Ramon Lopez, Jr. were used in crimes associated with the Torres
   Sabana Drug Trafficking Organization, a notorious and violent drug trafficking organization in
   Puerto Rico. Another firearm, a Glock pistol, was recovered in Medellin, Colombia, after being
   used to commit a homicide. Yet another firearm was found in the possession of a hitman for
   Oficina de Envigado, an organization described by the Department of Treasury as “a violent
   Medellin-based organized crime group that engages in large-scale drug trafficking and money
   laundering activities in Colombia.”




                                            -14-
   Recently, several of the Operation Castaway defendants were sentenced. Hugh Crumpler, III
   (age 63, of Palm Bay) was sentenced to 30 months in federal prison for dealing firearms
   without a license and unlawfully possessing short barreled rifles; Ramon Lopez, Jr. (age 29, of
   Kissimmee) was sentenced to 74 months in federal prison for dealing firearms without a
   license and unlawfully possessing short barreled rifles; Carlos Humberto Guillen-Rivera (age
   29, of Honduras) was sentenced to 84 months in federal prison for conspiring to possess and
   illegally possessing short barreled rifles; Cesar Augusto Guillen-Rivera (age 31, of Honduras)
   was sentenced to 65 months in federal prison for conspiring to possess and illegally possessing
   short barreled rifles; Erlin Javier Guillen-Rivera (age 25, of Honduras) was sentenced to 63
   months in federal prison for conspiring to possess and illegally possessing short barreled rifles;
   and Hector Saenz (age 38, of Honduras) was sentenced to 46 months for conspiracy.

   Operation Castaway defendant Jesus Puentes pleaded guilty on August 31, 2010 to conspiring
   to possess and illegally possessing short barreled rifles and will be sentenced on November 18,
   2010. Defendant Jorge Acosta has pleaded guilty to conspiring to possess and illegally
   possessing short barreled rifles. Acosta will be sentenced at a future date. Two additional
   defendants, Antonia Ruiz-Varela and Manuel Dejesus Carrasco-Ruiz, are still at large and have
   yet to be arrested by authorities. Operation Castaway remains an ongoing investigation.

•	 Atlanta Field Division: Brunswick, Georgia – Recently, 34 federal indictments unsealed in
   federal court, have charged 57 defendants with federal firearms, drug trafficking or other
   federal offenses. Thirty-two additional defendants were charged by Glynn County authorities
   on related state firearms and drug charges. The federal and state charges follow a 9-month
   undercover investigation dubbed “Operation Thunderbolt.”

   The U.S. Attorney’s Office, ATF, the Glynn County Police Department and the Glynn County-
   Brunswick Narcotics Enforcement Team (GBNET) initiated Operation Thunderbolt in the fall
   of 2009. Additional investigative support was provided by U.S. Immigration and Customs
   Enforcement and the U.S. Secret Service. Undercover ATF agents posed as members of the
   Brunswick community interested in purchasing guns and drugs from the criminal element.
   During the operation, undercover agents purchased 245 firearms, including handguns, rifles,
   assault rifles and sawed-off shotguns, and approximately $200,000 worth of illegal drugs,
   including more than 3 pounds of cocaine, over 1,500 ecstasy pills, over 800 oxycodone pills,
   and a quantity of methadone. Many of the individuals who sold firearms and drugs to the
   undercover agents are allegedly convicted felons. In addition, a number of the guns purchased
   by undercover agents were allegedly stolen.

   Following numerous arrests, initial appearances for several of the federally indicted defendants
   were held in U.S. District Court, Brunswick, Georgia, on August 12, 2010. In summary, a total
   of 55 federal defendants were indicted, with two additional subjects yet to be identified also
   charged federally; and 29 adult defendants and three juveniles were arrested or being sought on
   state charges.




                                            -15-
PROGRAM: Arson and Explosives

Background/Program Objectives: ATF is the Federal agency primarily responsible for administering
and enforcing the criminal and regulatory provisions of the Federal laws pertaining to destructive
devices (bombs), explosives, and arson. Over nearly 40 years, ATF has developed investigative
capabilities, expertise, and resources that have positioned ATF as this Nation’s definitive source for
explosives and fire investigative knowledge and assistance.

Approximately ninety-nine percent of all bombings in the United States fall under the jurisdiction of
ATF, but ATF also responds to and plays a key role in investigating the few incidents that are
classified as “terrorist bombings.” These include incidents that are classified as domestic terrorism,
such as those perpetrated by animal rights activists. An array of specialized programs and technical
services managed and executed by a diverse and knowledgeable workforce, is the foundation of ATF’s
success. These include, but are not limited to, the following:

   •	 Certified Explosives Specialist (CES) Program: The primary mission of this program is to
      protect the public through the vigorous enforcement of the Federal explosives laws; to provide
      credible explosives crime scene examinations; to lend expertise in support of security measures
      implemented at special events; and to assist ATF’s law enforcement counterparts at the
      Federal, State, local, and international levels in their efforts to investigate complex explosives-
      related incidents.

   •	 Explosives Enforcement Officers: ATF’s explosives enforcement officers (EEOs) provide
      technical assistance and support in explosives matters. EEOs have extensive experience in
      explosives and bomb disposal. Most EEOs are former military explosive ordinance disposal
      (EOD) trained, with extensive training in nuclear, biological, chemical, and conventional high
      explosive and incendiary weapons systems. EEOs render explosive devices safe and/or
      disassemble explosive and incendiary devices, prepare destructive device determinations, and
      render expert testimony in support of such determinations in State and Federal criminal court
      proceedings. Additionally, EEOs provide expert analysis and onsite investigative technical
      assistance at bombing and arson scenes and scenes where explosions of an undetermined
      nature have occurred. They play a critical role in large-scale explosives destructions.
      Determining what constitutes an explosive, incendiary, or destructive device under the Federal
      explosives laws and the National Firearms Act involves highly technical examinations and
      analyses, and is a function that is uniquely performed by ATF’s EEOs. They also provide
      assistance and training in all aspects of explosives handling, usage, and disposal; threat
      vulnerability assessments; infrastructure protection; and other explosives-related matters.

   •	 Certified Fire Investigator (CFI) Program: The CFI Program consists of special agents who
      have undergone an extensive 2-year training program designed to educate them in the field of
      advanced fire scene examination, with emphasis on modern principles of fire dynamics. These
      agents comprise the only group of fire origin and cause specialists within the Federal sector.

       The special agent CFIs serve as ATF’s primary resource in fire-related matters. They conduct
       fire scene examinations and render origin and cause determinations on behalf of ATF; provide
       expert courtroom testimony; provide technical support and analysis to assist other special



                                                -16-
       agents and prosecutors with court preparation, presentation of evidence, and technical
       interpretation of fire-related information; lend technical guidance in support of field arson
       investigative activities; conduct arson-related training for ATF special agents and other
       Federal, State, and local fire investigators; and conduct research and identify trends and
       patterns in fire incidents.

   •	 National Response Team (NRT): ATF’s National Response Team was formed in 1978 to
      help meet the needs of those who respond to and investigate complex incidents. The NRT was
      designed to bring together all of ATF’s expertise and experience to work alongside State and
      local officers in reconstructing the scene, identifying the seat of the blast or origin of the fire,
      conducting interviews, sifting through debris to obtain evidence related to the explosion and/or
      fire, assisting with the ensuing investigation, and providing expert court testimony.

       The NRT consists of four regional response units. Each unit can respond to an incident within
       24 hours and is comprised of technical experts and veteran special agents having post-blast and
       fire origin and cause expertise, including CESs, CFIs, EEOs, forensic chemists, fire protection
       engineers, electrical engineers, forensic mapping capabilities, and accelerant and explosives
       detection canines. Further complementing the team’s efforts are intelligence and audit support,
       and technical and legal advisors.

Performance Measure: Percentage of arson/explosives cases with defendants referred for
prosecution.

FY 2001 Actual Performance – N/A
FY 2002 Actual Performance – N/A
FY 2003 Actual Performance – N/A
FY 2004 Actual Performance – N/A
FY 2005 Actual Performance – N/A
FY 2006 Actual Performance – N/A
FY 2007 Actual Performance – N/A
FY 2008 Actual Performance – N/A
FY 2009 Actual Performance – 19%
FY 2010 Target – 25%
FY 2010 Actual Performance – 21%

                    Percentage of Arson/explosives Cases with Defendants Referred for

                                              Prosecution


                                               Actual    Target               25%
                                                                        19%
                                                                              21%
                         0%   0%    0%    0%    0%      0%   0%   0%
                       FY 01 FY 02 FY 03 FY 04 FY 05 FY 06 FY 07 FY 08 FY 09 FY 10




Data Definitions: The majority of ATF's resources in arson and explosives are expended to prevent



                                                 -17-
explosives from getting into the hands of those who would use them for criminal purposes, and to
investigate and refer for prosecution those who have used explosives for such purposes. This measure
reflects the outcome of ATF's investigative efforts in arson and explosives criminal cases, from the
initial on-scene assessment and determination that a crime has been committed, the application of
technical and forensic resources in the course of the investigation, the identification of suspects, the
development/gathering of evidence sufficient to support criminal charges, and finally, to the
presentation of a criminal case suitable for prosecution to the prosecuting attorney.

Data Collection and Storage: Data to support the measure for the percentage of cases with arson and
explosives defendants referred for prosecution is collected through the NFOCIS. NFOCIS provides
ATF with an integrated and centralized data management solution that allows for real time monitoring
and oversight of all criminal enforcement and industry operations activities in the field. NFOCIS
provides the platform for analysis of investigative information for the purpose of producing
intelligence and statistical reports derived from the information collected by ATF.

Data Validation, and Verification: Program evaluations by internal and external entities are being
used to validate performance measures, assess program effectiveness, and determine whether
operating policies are followed. ATF has also initiated various program evaluations and customer
surveys to gauge program impact, efficiency and effectiveness of, and customer satisfaction with, ATF
support and services provided to industry and law enforcement.

Discussion of FY 2010 Results: The following case highlights ATF’s FY 2010 accomplishments:

   •	 In December 2008, a bomb was planted outside the Woodburn West Coast Bank in Woodburn,
      Oregon as part of a bank robbery scheme. Believing it to be a hoax, an Oregon State Police
      (OSP) Senior Trooper, the Woodburn Police Department (WPD) Chief, and a WPD Captain
      were dismantling the bomb inside the bank when it exploded. The explosion killed the OSP
      Senior Trooper and the WPD Captain and severely injured the WPD Chief, resulting in the
      amputation of his right leg.

       The ATF Seattle Field Division’s local response team processed the bomb scene, led by an
       ATF CFI and two ATF EEOs. The EEOs spent hundreds of hours poring through recovered
       bomb debris and built a highly accurate facsimile of the bomb. A tiny screw proved to be the
       unique part of a Futaba servo motor housing, which proved that the bomb was remotely
       controlled. With this key evidence, the Marion County, Oregon Prosecution Team charged the
       suspects with aggravated murder, a capital offense.

       In September 2010, one of the ATF EEOs provided expert testimony during the trial,
       describing the bomb and its lethal effects. The prosecution’s case was that both suspects held
       anti-Government views and fantasized about robbing banks for years prior to the bombing. In
       December 2008, with their biodiesel business failing and their concerns over gun rights and the
       recent election of President Obama, the suspects decided to act on these fantasies. At the
       outset of the trial, each defendant accused the other of the crime. The trial is expected to run
       through December 2010.




                                                -18-
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
Federal Managers' Financial Integrity Act of 1982

The Federal Managers' Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management's responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as well
as accounting and financial management. The Integrity Act requires federal agencies to establish
controls that reasonably ensure obligations and costs are in compliance with applicable law; funds,
property, and other assets are safeguarded against waste, loss, unauthorized use, or misappropriation;
and revenues and expenditures are properly recorded and accounted for to maintain accountability
over the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of federal programs (FMFIA § 2) and whether financial management
systems conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through Office of Management and Budget
(OMB) Circular A-123, Management’s Responsibility for Internal Control. In addition to requiring
agencies to provide an assurance statement on the effectiveness of programmatic internal controls and
conformance with financial systems requirements, the Circular requires agencies to provide an
assurance statement on the effectiveness of internal control over financial reporting. The Department
requires components to provide both of the assurance statements in order to have the information
necessary to prepare the agency assurance statements.

ATF’s Deputy Director provided reasonable assurance that internal controls and financial systems met
the objectives of Section 2 and 4 of the FMFIA and complies with the requirements of the Federal
Financial Management Improvement Act (FFMIA).

FMFIA Assurance Statement
Management of the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) has established and
maintained effective internal control and financial management systems that meet the objectives of
FMFIA. ATF assessed its internal control over the effectiveness and efficiency of operations and
compliance with applicable laws and regulations in accordance with OMB Circular A-123, l, as
required by Section 2 of the FMFIA. Based on the results of this assessment, ATF provides
reasonable assurance, as of June 30, 2010, that its internal control over the effectiveness and efficiency
of operations and compliance with applicable laws and regulations was operating effectively.

ATF also assessed whether its financial management systems conform to government-wide
requirements. Based on the results of this assessment, ATF provides reasonable assurance that there
are no non-conformances that are required to be reported by Section 4 of the FMFIA. While the
presence of complementary or redundant controls presented a potential risk, we determined the risk
level to be minimal. In addition, ATF acknowledges several issues related to access controls.

ATF implements compensating controls to eliminate deficiencies and continues to identify system
vulnerabilities and recommend security solutions to maintain systems at a reasonable assurance level.




                                                 -19-
       ATF bases this assertion on the following information sources:

       •	     Internal control assessments including tests of key financial reporting controls;
       •	     Management knowledge and experience gained from daily oversight of component
              programs, accounting systems, and administrative controls;
       •	     Program audit reports;
       •	     Financial statement audit reports;
       •	     Financial management system evaluations and reports pursuant to OMB Circular A­
              127, Financial Management Systems;
       •	     Evaluations and reports pursuant to the Federal Information Security Management Act
              (FISMA) and OMB Circular A-130, Management of Federal Information Resources;
       •	     Management reviews;
       •	     Internal reviews and investigations;
       •	     Office of the Inspector General (OIG) reports and Government Accountability Office
              (GAO) reports;
       •	     Performance plans and reports; and
       •	     Statements of Assurance from each directorate head.

ATF’s accomplishments demonstrate the Bureau’s continued commitment to supporting a complex
law enforcement mission of preventing terrorism, reducing violent crime, and protecting our Nation.

There is “reasonable assurance” that the financial system for the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) is in conformance with government-wide financial information
standards and financial system functional standards under Section 4 of FMFIA for FY2010.

This statement of assurance is based on the Bureau's core financial system (FReD/UFMS) for both
revenue and administrative accounting, and assessments of all associated financial system modules.
Based on the current management, operational, and technical controls in place, we have reasonable
assurance that our financial and administrative systems have no material issues as they relate to
Section 4 of t FMFIA and are “compliant” with the FFMIA. This statement of assurance is based on
the Bureau’s core financial system for both revenue and administrative accounting, and assessments of
all associated financial system modules and the financial portions of mixed systems, supporting both
financial and non-financial functions.

Some additional accomplishments related to Section 4 of FMFIA are as follows:

   •	 ATF has consistently closed its books within three work days following an accounting period.

   •	 During FY2010, ATF migrated to Momentum version 6.1.5/ UFMS Phase I. As an early
      adopter of more than half of the UFMS standards, ATF reduced the overall risk of the
      implementation effort, increased efficiency, obtained enhancements to our current financial
      system, and gained key audit and operational benefits.

   •	 ATF’s successful use of the Monthly Accountability Process (MAP) serves as an internal
      management tool for preparing accounting reconciliations and reporting financial information.
      To validate that procedures and policies are being followed, MAPs monitor and manage



                                               -20-
       budgeting and accounting activity and ensure that data in FReD/UFMS is current and accurate.
       Recently, ATF incorporated an additional internal management control that ensures access
       recertification. Monthly comparisons between E-Request and FReD/UFMS ensure there are
       no discrepancies between requesting and receiving system access.

   •	 The Bureau continued the CFO Steering Committee meetings composed of ATF’s Deputy
      Assistant Directors and chaired by the CFO to monitor progress, resolve problems, provide
      coordination, and develop consensus recommendations regarding audited financial statement
      issues, corrective action status, and the Bureau's internal control environment.

ATF controls that fulfill Prompt Payment Act requirements include date stamping invoices by
individuals not involved in the payment process; performing quality and validity reviews of each
invoice; encouraging program offices to be prompt in entering receipts for goods and services into the
financial system; and using management reporting tools to track outstanding invoices in the financial
system to prevent late payments and associated interest penalties.

ATF strengthened controls and safeguards over sensitive property and will close this previously
identified material weakness, which was downgraded to a reportable condition by December 2010. In
addition, ATF requested a waiver from DOJ’s CIO for all non-encrypted computers that have
justifiable reasons for not complying with the encryption process. During FY 2010, ATF continued to
refine its accounts payable process. ATF made significant progress in correcting the accounts payable
deficiency reported previously by the CFO auditors and in internal testing. The results of our internal
testing revealed significant progress and showed ATF has strong policies and procedures in place;
however our internal testing and external audit reports noted internal controls over the obligation
process could be strengthened by improved oversight and approval controls and improving controls
for the Accounts Payable accrual process. ATF is implementing corrective actions to strengthen
controls in these areas and providing updated financial management training. Additionally, some of
these issues will be resolved by implementation of the Unified Financial Management System
(UFMS).

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve
federal financial and program managers' accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of federal programs. FFMIA requires agencies
to have financial management systems that substantially comply with federal financial management
systems requirements, applicable federal accounting standards, and the U.S. Standard General Ledger
(USSGL) at the transaction level. Furthermore, the Act requires independent auditors to report on
agency compliance with the three requirements in the financial statement audit report. The Federal
Information Security Management Act (FISMA) states that to be substantially compliant with FFMIA,
there are to be no significant deficiencies in information security policies, procedures, or practices.

FFMIA Compliance Determination
During FY 2010, ATF assessed its financial management systems for compliance with FFMIA and
determined that they substantially comply with FFMIA. This determination is based on the results of



                                                -21-
FISMA reviews and testing performed for OMB Circular A-123, Appendix A. Consideration was also
given to any issues identified during the ATF’s financial statement audit.

With respect to internal accounting control, ATF management identifies designs, operates, maintains,
and monitors an appropriate system of internal controls to enable the Bureau to accurately report its
financial information to the Department of Justice (DOJ) and meet the requirements of OMB Circular
A-123, Appendix A and FFMIA.

In accordance with DOJ’s OMB Circular A-123 Implementation Plan, the Department’s Senior
Assessment Team identified the business processes significant at the Departmental level and the DOJ
components comprising a significant share of those processes. As required by the Department’s
FY2010 Guidance for Implementation of OMB Circular A-123, we have documented the following
significant business processes and tested key controls for each:

       •	   Information Systems;
       •	   Budget/Funds Management;
       •	   Financial Reporting;
       •	   Procurement; and
       •	   Seized and Forfeited Property.

In addition, as also required by DOJ’s FY2010 Guidance for Implementation of OMB Circular A-123,
ATF has tested key controls over sensitive payments related to:

       •	   Travel Expenditures, including Premium Class Travel;
       •	   Transit Subsidies; and
       •	   Conference Expenditures.

The results of testing identified no material weaknesses or reportable conditions in ATF’s internal
control over financial reporting as of September 30, 2010. However, the testing did identify some
deficiencies, none of which was significant enough to be considered a material weakness or reportable
condition.

In addition, in accordance with OMB guidance, is based on the Bureau's financial system
(FReD/UFMS) meeting the following standards:

   •	 Financial information standards: compliance with the Standard General Ledger (SGL) and
      quality data, which are accurate, complete, reliable, timely, comparable, consistent, useful
      financial information for the current and past fiscal years.

   •	 Financial system functional standards: compliance with the Joint Financial Management
      Improvement Program (JFMIP) Federal Financial Systems Requirements, reliance on effective
      interfaces, documentation and audit trails, and support for mission performance.

IMPROPER PAYMENTS INFORMATION ACT

ATF assessed the effectiveness of internal control over financial reporting in compliance with OMB



                                               -22-
Circular A-123. ATF is actively identifying and implementing additional procedures to prevent and
detect improper payments. Furthermore, all financial statement audit findings/comments and results
of other payment reviews are reviewed for indications of breaches of disbursement controls. None of
these audit findings/comments or reviews have uncovered any problems with improper payments or
the internal controls that surround disbursements.

This risk-assessment revealed no risk-susceptible programs in which improper payments exceed both
2.5% of program payments and $10 million, and demonstrated that, overall, ATF has strong internal
controls over disbursement processes, the amount of improper payments are immaterial, and the risk
of improper payments is low.

AMERICAN RECOVERY AND REINVESTMENT ACT (ARRA)

ATF used the $10 million in ARRA funding to establish three new field offices and one satellite office
along the Southwest Border and two offices in U.S. Consulates in Mexico. Thirty-seven employees
were recruited, hired and trained to fill these positions and/or to backfill vacancies created as a result
of the transfer of more experienced employees to these new office locations. These new field offices
enhance ATF’s law enforcement and regulatory mission of reducing firearms and explosives-related
violent crime associated with Mexican drug trafficking organizations by preventing the acquisition and
trafficking of firearms (and explosives) by and for Mexican drug trafficking organizations.

The additional ARRA funding activity will allow this program to enhance public safety. Violence
perpetrated by Mexican drug trafficking organizations has increased significantly, made possible, in
part, by the unlawful acquisition of firearms from the United States. Concerns also exist that drug-
related violence in Mexico will continue to spill into the United States. The new domestic field offices
and offices in U.S. Consulates in Mexico will enhance ATF’s law enforcement and regulatory roles in
denying firearms to gun traffickers, prohibited persons and those who seek to use them for criminal
purposes.

The expenditure of ARRA funds complied with a Congressionally approved spending plan. The
ARRA funds support and continue established performance measures for firearms investigations and
inspections. ATF created a separate fund in the financial system to identify and track spending of the
allotted funds. The ATF Financial Management Division reviews spending activity in the ARRA fund
weekly, and reports to ATF’s CFO. In addition, ATF reporting confirms the reasonableness of
activities from week to week. This reporting captures “total obligations” and “total gross outlays” that
are recorded on the “Financial and Activity Report v1.4” that are sent to DOJ weekly for review. ATF
did not identify any reportable conditions associated with managing Recovery Act funds across DOJ
mandated material business processes for ATF.

The expected strategic outcome is multifold. By curtailing the availability of firearms to the Mexican
drug cartels, ATF will diminish their ability to export drugs to the U.S. In addition, by removing the
guns from the cartels’ lethal resources, ATF will directly affect their ability to operate and suppress
the firearms-related violence that occurs on both sides of the Southwest Border. This will be
accomplished through effective law enforcement collaboration, focused training, and interdiction of
illicit trafficking and illegal use of firearms and ammunition.




                                                 -23-
For more information on ARRA please reference the website at www.atf.gov/gov/recovery/index.htm.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

ATF has aligned its priorities to the current priorities of the President and the Nation to fight terrorism
and to make our people and our communities safe from violence. Firearms and explosives are the
tools of terrorism; ATF continues to regulate their legitimate use and enforce laws against criminal
misuse. The illegal importation and trafficking of these terrorist tools continue to be disrupted through
our investigations and regulatory efforts. Because our communities continue to struggle against the
violence of criminals and gangs, ATF’s initiatives and partnerships with other law enforcement
organizations are critical components in the fight to protect the American people from violent firearms
crime. The Project Safe Neighborhoods (PSN) initiative is tailored toward the needs of each of the 94
individual judicial districts and communities across the country, combining enforcement efforts, the
use of state-of-the-art information and technology, and community outreach and prevention. ATF’s
partnership strategies with all of the U.S. Attorney’s offices, including those in locations that currently
do not have a full time PSN resource, increase the effectiveness of efforts to target gangs and violent
crime.

The potential threat to public safety from criminal or terrorist theft and misuse of explosives cannot be
overstated. Because of the extremely high and unacceptable risk, ATF believes that more
comprehensive enforcement and regulatory efforts are essential to ensure the safe and secure storage
of explosive materials. ATF’s responsibility for public safety requires us to investigate all reported
thefts of explosives and conduct comprehensive inspections of all explosives licensees triennially.
ATF continues to work with the explosive industry manufacturers and users to improve the security,
safe handling, and storage of these materials.

The following are examples of issues that have the potential to affect ATF operations in multiple
regions:

   •	 As gangs spread out across the United States, they may be moving to areas where ATF does
      not have a presence. (e.g.: increased violence on the Southwest Border that spills over into the
      United States from Mexico)

   •	 In terms of workforce availability, cities that are experiencing dramatic increases in the cost of
      living will have difficulty providing rapid responses to emergency situations as personnel must
      travel long distances from residences; in addition, it may be difficult to retain qualified
      personnel in these areas.

   •	 The potential closure of additional military bases, as well as large companies and industries
      that employ thousands of people in particular geographic areas, may cause crime to increase.

   •	 Similarly, natural disasters such as hurricane, flood and wildfire will present economic

      challenges and the potential for an increase in crime. 


   •	 Localities that are dealing with economic downturns and are having difficulty funding
      government services (e.g. police forces) will impact ATF operations, as local governments



                                                 -24-
     may not be able to provide officers to participate in ATF task forces.

  •	 An economic downturn may lead to a rise in arson fires.

  •	 Changes in state laws and changes in taxes have the potential to affect trafficking patterns (e.g.,
     firearms, alcohol and tobacco).

  •	 Several areas have expressed concern about the potential for violent acts by extremist

     environmental groups and organizations. 


  •	 Along with other agencies, ATF has contingency plans in place to continue operating if its own
     facilities and personnel are directly affected or threatened by terrorist acts. However, any such
     threats may have a negative impact on the Bureau’s ability to address other forms of violence.

LIMITATIONS OF THE FINANCIAL STATEMENTS

  •	 The financial statements have been prepared to report the financial position and results of
     operations of ATF, pursuant to the requirements of 31 U.S.C. 3515(b).

  •	 While the statements have been prepared from the books and records of ATF in accordance
     with accounting principles generally accepted in the United States of America for Federal
     entities and the formats prescribed by OMB, the statements are in addition to the financial
     reports used to monitor and control budgetary resources which are prepared from the same
     books and records.

  •	 The statements should be read with the realization that they are for a component of the U.S.
     Government, a sovereign entity.




                                               -25-
This page intentionally left blank.





               -26-
Reports of Independent Auditors




            -27-
This page intentionally left blank.





               -28-
                               INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Inspector General
United States Department of Justice

Deputy Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the accompanying Consolidated Balance Sheet of the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF), a component of the United States Department of Justice (DOJ), as of September 30, 2010, and the
related Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position, and Combined
Statement of Budgetary Resources for the year then ended. These financial statements are the responsibility of
ATF’s management. Our responsibility is to express an opinion on these financial statements based on our audit.
The financial statements of ATF as of September 30, 2009, were audited by other auditors whose report dated
November 2, 2009, expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended by OMB Memorandum M-09-33. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of ATF’s internal control over financial reporting.
Accordingly, we express no such opinion. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting principles
used, and significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated
financial position of ATF as of September 30, 2010; and its consolidated net costs, consolidated changes in net
position, and combined budgetary resources for the year then ended, in conformity with accounting principles
generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis and Required Supplementary Information sections is
not a required part of the basic consolidated financial statements, but is supplementary information required by
U.S. generally accepted accounting principles, or by OMB Circular No. A-136, Financial Reporting Requirements.
We have applied certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 2, 2010, on
our consideration of ATF’s internal control over financial reporting and on our tests of its compliance with certain
provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our testing


                                                        -29-
of internal control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audit.

COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 2, 2010
Alexandria, Virginia




                                                       -30-
                     INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inspector General
United States Department of Justice

Deputy Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the Consolidated Balance Sheet of the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF),
a component of the United States Department of Justice (DOJ), as of September 30, 2010, and the related
Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position, and Combined Statement
of Budgetary Resources for the year then ended, and have issued our report thereon dated November 2, 2010.
We conducted our audit in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended by OMB Memorandum M-09-33.

In planning and performing our audit, we considered ATF’s internal control over financial reporting as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial statements, but not
for the purpose of expressing an opinion on the effectiveness of ATF’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of ATF’s internal control over financial reporting or
on management’s assertion on internal control included in Management’s Discussion and Analysis. We limited our
internal control testing to only those controls necessary to achieve the objectives described in Government
Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such as controls relevant to
ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above. However, we
identified certain deficiencies in internal control over financial reporting, described below, that, when combined,
we consider to be a significant deficiency in internal control over financial reporting. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

ATF’s response to the finding identified in our audit is included below after the recommendation. We did not audit
ATF’s response and, accordingly, we express no opinion on it.




                                                        -31-
FUNDS MANAGEMENT CONTROLS NEED IMPROVEMENT (SIGNIFICANT DEFICIENCY)

ATF’s internal controls need improvement to ensure that undelivered orders are valid, accounts payable
transactions are calculated correctly, and related account balances are accurate and complete. ATF’s quarterly
process for accruing estimated expenses is labor-intensive, manual, and inherently high risk by nature. ATF
personnel are not adequately reviewing and approving transactions before posting them to the general ledger,
validating posting results to ensure data accuracy, or monitoring undelivered orders to determine their validity.

During interim and year-end testing, we selected and reviewed three sample populations of undelivered order and
accounts payable transactions. We identified the following accounting errors and instances of non-compliance
with accounting standards, OMB Circular No. A-11, Preparation, Submission and Execution of the Budget, the
United States Standard General Ledger (USSGL) and other accounting guidance.

                                       UNDELIVERED ORDERS/ACCOUNTS PAYABLE
                                           FISCAL YEAR 2010 TEST RESULTS
                                             NUMBER OF ERRORS/
                                                                                                                    1
SAMPLE POPULATION                            TRANSACTIONS TESTED         KNOWN ERRORS          LIKELY MISSTATEMENT

                                                                      Undelivered Orders       Undelivered Orders
                                                                       $1.5 million net          $2 million net
                                                                        overstatement            overstatement
March 31, 2010 Testing                              15/150
                                                                       Accounts Payable         Accounts Payable
                                                                        $3 thousand net         $550 thousand net
                                                                         overstatement            overstatement


                                                                      Undelivered Orders       Undelivered Orders
                                                                       $3.7 million net         $4.3 million net
                                                                        overstatement            overstatement
June 30, 2010 Testing                               8/145
                                                                       Accounts Payable         Accounts Payable
                                                                       $423 thousand net         $7 thousand net
                                                                        understatement            overstatement


                                                                      Undelivered Orders       Undelivered Orders
                                                                        $118 thousand            $404 thousand
                                                                       understatement           understatement
September 30, 2010 Testing                           3/71
                                                                       Accounts Payable         Accounts Payable
                                                                          $2.6 million             $2.6 million
                                                                        overstatement            overstatement

1
  Each transaction tested has a unique weight in relation to the total population; therefore, the likely misstatement
will not be in linear proportion to the known errors. In addition, a known net understatement may project to a
likely net overstatement.




                                                       -32-
The accounting errors and instances of non-compliance are discussed below.

MARCH 31, 2010
During March 2010 testing of undelivered orders and accounts payable, we noted 15 exceptions.

    •	   Six undelivered order transactions were understated by $2.5 million because accruals were calculated
         improperly, duplicative, or not recorded.

    •	   Three travel and permanent change-of-station undelivered order transactions were overstated by $23
         thousand because two deobligations were entered incorrectly, which resulted in an increase to the
         undelivered order balance rather than a decrease, and one obligation transaction was posted in error.

    •	   Two undelivered order transactions were overstated by $4 million because they were for capital leases for
         which the equipment had been received and was being amortized. The portion of the balance related to
         the capital lease liability should have been classified as a budgetary accounts payable.

    •	   One accounts payable transaction totaling $58 thousand was posted in duplicate because a receiver was
         recorded for an IPAC transaction that had already been accrued as part of a journal voucher entry to
         record IPAC transactions in suspense.

    •	   Three accounts payable transactions were understated by a net $55 thousand because ATF did not
         correctly calculate accounts payable accruals. ATF failed to include an administrative fee in its accrual
         calculation, used 4 rather than 3 months as the performance period when calculating an accrual, and
         made a transposition error when recording an accrual.

JUNE 30, 2010
During June 2010 testing of undelivered orders and accounts payable, we noted eight exceptions.

    •	   Undelivered order transactions were overstated by $3.2 million because they were for capital leases for
         which the equipment had been received and was being amortized. The portion of the balance related to
         the capital lease liability should have been classified as a budgetary accounts payable.

    •	   Three undelivered order and accounts payable transactions were incorrect because vendor accruals were
         calculated incorrectly. ATF failed to include an administrative fee in its calculation, increased the vendor’s
         estimate of unbilled costs in error, and incorrectly adjusted an accrual at month-end. Undelivered orders
         were overstated by a net $486 thousand and accounts payable were understated by the same amount.

    •	   Four accounts payable transactions totaling $63 thousand were overstated because ATF did not correctly
         calculate accounts payable accruals. ATF accrued for the entire year rather than only through June 30;
         accrued 4 rather than 3 months of services; failed to accrue for all goods received as of June 30; and failed
         to decrease a receiver to agree to the vendor estimate.

SEPTEMBER 30, 2010
During September 2010 testing of undelivered orders and accounts payable, we noted three exceptions.

    •	   One undelivered order transactions was understated by $118 thousand because ATF recorded an accrual
         for September services twice; once as part of the high-dollar vendor accrual and again as part of the AFF
         reimbursable obligation accrual.

    •	   Accounts payable transactions for capital leases were overstated by $2.5 million because ATF posted
         receivers in its accounting system, creating accounts payable in general ledger account 2110, which
         duplicated the capital lease liability already recorded in general ledger account 2940.




                                                        -33-
    •	   One accounts payable transaction was overstated by $55 thousand because ATF made an error when
         calculating its accrual.

Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal Government,
paragraphs 22 and 23, state that a liability and the corresponding expense should be recognized during the period
when an exchange transaction takes place.

Title 31 U.S.C. §1501(a) states:

         An amount shall be recorded as an obligation of the United States Government only when
         supported by documentary evidence of: (1) a binding agreement . . .; (2) a loan agreement . . .;
         (3) an order required by law to be placed with an agency; (4) an order issued under a law
         authorizing purchases without advertising . . .; (5) a grant or subsidy payable . . .; (6) a liability
         that may result from pending litigation; (7) employment or services of persons or expenses of
         travel under law; (8) services provided by public utilities; or (9) other legal liability of the
         Government against an available appropriation or fund.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget, states that an obligation is a legally
binding agreement that will result in outlays that will occur either immediately or in the future. An obligation is
incurred when an order is placed or a contract is signed that requires the Government to make payments to the
public or to another Government agency.

The USSGL defines an undelivered order as “the amount of goods and/or services ordered which have not been
actually or constructively received.”

Government Accountability Office (GAO) Standards for Internal Control in the Federal Government (GAO/AIMD-00-
21.3.1) require control activities to ensure that all transactions are completely and accurately recorded.

RECOMMENDATION

We recommend that ATF:

1.	 Establish stronger oversight controls for processing accounts payable, obligation, and deobligation
    transactions, including:
    •	 Recalculation and validation by the preparer;
    •	 Review and approval of source documentation, calculations, and posting by someone other than the
        preparer; and
    •	 A more thorough managerial review. (New)

Management Response:

ATF concurs with the above recommendation and is establishing stronger oversight to validate and review
accounts payable, obligation, and deobligation transactions. Specifically, ATF is enhancing financial management
policies and procedures to address the above finding and reiterate all transaction review and documentation
requirements. ATF will continue efforts to eliminate internal control concerns over financial reporting.


                                              *         *          *       *




                                                            -34-
This report is intended solely for the information and use of ATF’s management, DOJ Office of the Inspector
General, OMB, the U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and
should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 2, 2010
Alexandria, Virginia




                                                     -35-
This page intentionally left blank.





               -36-
                         INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Inspector General
United States Department of Justice

Deputy Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the Consolidated Balance Sheet of the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF),
a component of the United States Department of Justice (DOJ), as of September 30, 2010, and the related
Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position, and Combined Statement
of Budgetary Resources for the year then ended, and have issued our report thereon dated November 2, 2010.
We conducted our audit in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended by OMB Memorandum M-09-33.

ATF’s management is responsible for complying with laws, regulations, and contract agreements applicable to ATF.
As part of obtaining reasonable assurance about whether ATF’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and contract
agreements, noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04,
including the provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of
1996 (FFMIA). However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of compliance described in the
preceding paragraph of this report, exclusive of those referred to in FFMIA, disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards and
OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether ATF’s financial management systems substantially comply with
federal financial management system requirements, applicable federal accounting standards, and application of
the United States Standard General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which ATF’s financial management systems did not
substantially comply with the requirements in the preceding paragraph.




                                                      -37-
This report is intended solely for the information and use of ATF’s management, DOJ Office of the Inspector
General, OMB, the U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and
should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 2, 2010
Alexandria, Virginia




                                                     -38-
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                        -39-
This page intentionally left blank.





               -40-
                                      U.S. Department of Justice

                         Bureau of Alcohol, Tobacco, Firearms and Explosives

                                    Consolidated Balance Sheets

                                 As of September 30, 2010 and 2009

Dollars in Thousands                                                                                     2010          2009

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                        $        261,136      $   257,432
          Accounts Receivable (Note 5)                                                              28,291           18,612
          Other Assets (Note 8)                                                                     14,349           20,694
      Total Intragovernmental                                                                      303,776          296,738
      Cash and Monetary Assets (Note 4)                                                             49,009            6,341
      Accounts Receivable, Net (Note 5)                                                                162               99
      General Property, Plant and Equipment, Net (Note 7)                                          207,118          196,681
      Advances and Prepayments                                                                       1,669              853
Total Assets                                                                              $       561,734       $   500,712
LIABILITIES (Note 9)
      Intragovernmental
          Accounts Payable                                                                $            14,803   $    18,366
          Accrued Federal Employees' Compensation Act Liabilities                                      19,567        19,751
          Other Liabilities (Note 12)                                                                   9,393         8,332
      Total Intragovernmental                                                                          43,763        46,449

      Accounts Payable                                                                              45,744           46,047
      Actuarial Federal Employees' Compensation Act Liabilities                                    107,012          105,498
      Accrued Payroll and Benefits                                                                  31,560           28,055
      Accrued Annual and Compensatory Leave Liabilities                                             52,408           48,600
      Seized Cash and Monetary Instruments (Notes 4 and 11)                                          3,010            2,436
      Contingent Liabilities (Note 13)                                                               3,505            3,500
      Capital Lease Liabilities (Note 10)                                                            1,875            3,241
      Other Liabilities (Note 12)                                                                   41,416              110
Total Liabilities                                                                         $       330,293       $   283,936
NET POSITION
      Unexpended Appropriations - All Other Funds                                         $        202,183      $   183,607
      Cumulative Results of Operations - All Other Funds                                            29,258           33,169
Total Net Position                                                                        $       231,441       $   216,776
Total Liabilities and Net Position                                                        $       561,734       $   500,712
                          The accompanying notes are an integral part of these financial statements.




                                                            -41-
                                          U.S. Department of Justice
                            Bureau of Alcohol, Tobacco, Firearms and Explosives
                                     Consolidated Statements of Net Cost
                           For the Fiscal Years Ended September 30, 2010 and 2009

Dollars in Thousands

                                  Gross Costs                                   Less: Earned Revenues                   Net Cost of
                    Intra­         With the                              Intra­        With the                         Operations
          FY     governmental       Public              Total         governmental      Public        Total              (Note 14)


Goal 1    2010    $           -   $      7,185      $       7,185     $             -    $            -    $        -   $      7,185
          2009    $           -   $      8,321      $       8,321     $             -    $            -    $        -   $      8,321

Goal 2    2010         365,344        900,590           1,265,934             90,417               742         91,159       1,174,775
          2009         339,493        813,825           1,153,318             55,400               156         55,556       1,097,762

Total     2010    $    365,344    $   907,775       $ 1,273,119       $       90,417     $         742     $   91,159   $ 1,181,960
          2009    $    339,493    $   822,146       $ 1,161,639       $       55,400     $         156     $   55,556   $ 1,106,083


Goal 1   Prevent Terrorism and Promote the Nation's Security
Goal 2   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People


                              The accompanying notes are an integral part of these financial statements.




                                                             -42-
                                      U.S. Department of Justice

                        Bureau of Alcohol, Tobacco, Firearms and Explosives

                         Consolidated Statements of Changes in Net Position

                       For the Fiscal Years Ended September 30, 2010 and 2009

Dollars in Thousands                                                                                       2010              2009
Unexpended Appropriations
  Beginning Balances                                                                        $        183,607       $     167,668

   Budgetary Financing Sources
      Appropriations Received                                                                      1,158,272            1,068,215
      Appropriations Transferred-In/Out                                                               (3,318)              16,647
      Appropriations Used                                                                         (1,136,378)          (1,068,923)

   Total Budgetary Financing Sources                                                                     18,576           15,939

   Unexpended Appropriations                                                                $        202,183       $     183,607

Cumulative Results of Operations
  Beginning Balances                                                                        $            33,169    $      35,030

   Budgetary Financing Sources
      Appropriations Used                                                                          1,136,378           1,068,923

   Other Financing Sources
      Transfers-In/Out Without Reimbursement                                                              2,407            2,173
      Imputed Financing from Costs Absorbed
         by Others (Note 15)                                                                             39,264           33,126

   Total Financing Sources                                                                         1,178,049           1,104,222

   Net Cost of Operations                                                                         (1,181,960)          (1,106,083)

   Net Change                                                                                            (3,911)           (1,861)

   Cumulative Results of Operations                                                         $            29,258    $      33,169

Net Position                                                                                $        231,441       $     216,776

                            The accompanying notes are an integral part of these financial statements.




                                                             -43-
                                    U.S. Department of Justice

                      Bureau of Alcohol, Tobacco, Firearms and Explosives

                          Combined Statements of Budgetary Resources

                     For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                                 2010            2009

Budgetary Resources
  Unobligated Balance, Brought Forward, October 1                                     $         82,195      $      53,971

  Recoveries of Prior Year Unpaid Obligations                                                   38,221             80,237

  Budget Authority
     Appropriations Received                                                                 1,158,272          1,068,215
     Spending Authority from Offsetting Collections
         Earned
            Collected                                                                           81,707             61,800
            Change in Receivables from Federal Sources                                           9,679             (5,500)
         Change in Unfilled Customer Orders
            Without Advance from Federal Sources                                                 1,509             33,421
  Subtotal Budget Authority                                                                  1,251,167          1,157,936

  Nonexpenditure Transfers, Net, Actual                                                          (3,318)           16,647

Total Budgetary Resources (Note 16)                                                   $    1,368,265        $   1,308,791

                        The accompanying notes are an integral part of these financial statements.




                                                         -44-
                                     U.S. Department of Justice

                       Bureau of Alcohol, Tobacco, Firearms and Explosives

                     Combined Statements of Budgetary Resources (Continued)

                      For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                                  2010            2009

Status of Budgetary Resources
  Obligations Incurred
    Direct                                                                            $      1,155,484       $   1,132,564
    Reimbursable                                                                               102,650              94,032
        Total Obligations Incurred (Note 16)                                                 1,258,134           1,226,596
  Unobligated Balance - Available
    Apportioned                                                                                  53,461             44,648
        Total Unobligated Balance - Available                                                    53,461             44,648
  Unobligated Balance not Available                                                              56,670             37,547
Total Status of Budgetary Resources                                                   $     1,368,265        $   1,308,791

Change in Obligated Balance
  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations                                                               $        238,351       $     215,902
     Less: Uncollected Customer Payments from Federal Sources                                   59,209              31,288
         Total Unpaid Obligated Balance, Net - Brought Forward, October 1                      179,142             184,614
  Obligations Incurred, Net                                                                  1,258,134           1,226,596
  Less: Gross Outlays                                                                        1,232,222           1,123,910
  Less: Recoveries of Prior Year Unpaid Obligations, Actual                                     38,221              80,237
  Change in Uncollected Customer Payments from Federal Sources                                 (11,188)            (27,921)

  Obligated Balance, Net - End of Period
    Unpaid Obligations                                                                         226,042             238,351
    Less: Uncollected Customer Payments from Federal Sources                                    70,397              59,209
        Total Unpaid Obligated Balance, Net - End of Period                           $       155,645        $    179,142

Net Outlays
  Gross Outlays                                                                       $      1,232,222       $   1,123,910
  Less: Offsetting Collections                                                                  81,707              61,800
  Less: Distributed Offsetting Receipts (Note 16)                                                  622                 247
Total Net Outlays (Note 16)                                                           $     1,149,893        $   1,061,863

                         The accompanying notes are an integral part of these financial statements.




                                                          -45-
                                      U.S. Department of Justice

                        Bureau of Alcohol, Tobacco, Firearms and Explosives

                              Combined Statements of Custodial Activity

                       For the Fiscal Years Ended September 30, 2009 and 2008


Dollars in Thousands                                                                               2010            2009

Revenue Activity
 Sources of Cash Collections
    Fees and Licenses                                                               $            13,985      $   14,224
    Fines, Penalties and Restitution Payments - Civil                                                22              18
    Fines, Penalties and Restitution Payments - Criminal                                             44              38
    Miscellaneous                                                                                   623             249

        Total Cash Collections                                                                   14,674          14,529
 Accrual Adjustments                                                                                    60           (23)

 Total Custodial Revenue                                                                         14,734          14,506

Disposition of Collections
    Transferred to Federal Agencies
        U.S. Department of the Treasury                                                         (14,345)         (14,210)
    Refunds and Other Payments                                                                     (389)           (296)

Net Custodial Activity (Note 17)                                                    $                    -   $         -

                           The accompanying notes are an integral part of these financial statements.




                                                            -46-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)

1. Summary of Significant Accounting Policies

       A. Reporting Entity

       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF or the Bureau),
       a principle law enforcement agency, is within the Department of Justice (DOJ or
       the Department). ATF’s mission is to reduce violent crime, prevent terrorism,
       and promote the Nation’s security. The men and women of ATF perform the dual
       responsibilities of enforcing Federal criminal laws and regulating the firearms and
       explosive industries.

       B. Basis of Presentation

       These financial statements have been prepared from the books and records of
       ATF in accordance with United States generally accepted accounting principles
       issued by the Federal Accounting Standards Advisory Board (FASAB) and
       presentation guidelines in the Office of Management and Budget (OMB) Circular
       A-136, “Financial Reporting Requirements.” These financial statements are
       different from the financial reports prepared pursuant to OMB directives which
       are used to monitor and control the use of ATF’s budgetary resources.

       Throughout these financial statements, intragovernmental assets, liabilities,
       earned revenues, and costs have been classified according to the type of entity
       with which the transactions are made. Intragovernmental assets and liabilities are
       those from or to other Federal entities. Intragovernmental earned revenues are
       collections or accruals of revenue from other Federal entities and
       intragovernmental costs are payments or accruals of payments to other Federal
       entities.

       To ensure that ATF’s financial statements are meaningful at the entity level and to
       enhance reporting consistency within the Department, Other Assets and Other
       Liabilities as defined by OMB Circular A-136 have been disaggregated on the
       balance sheet. These include Advances and Prepayments, Accrued Federal
       Employees’ Compensation Act Liabilities, Accrued Payroll and Benefits, Accrued
       Annual and Compensatory Leave Liabilities, Seized Cash and Monetary
       Instruments, Capital Lease Liabilities and Contingent Liabilities.




                                           -47-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       C. Basis of Consolidation

       The consolidated/combined financial statements include the accounts of ATF. All
       significant proprietary intra-entity transactions and balances have been eliminated
       in consolidation. The Statements of Budgetary Resources and Statements of
       Custodial Activity are combined statements for FYs 2010 and 2009, and as such,
       intra-entity transactions have not been eliminated.

       D. Basis of Accounting

       Transactions are recorded on the accrual and budgetary basis of accounting.
       Under the accrual basis, revenues are recorded when earned and expenses are
       recorded when incurred, regardless of when cash is exchanged. Under the
       budgetary basis, however, funds availability is recorded based upon legal
       considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial
       statements. The Combined Statements of Custodial Activity are presented on a
       modified cash basis. Civil and Criminal Debt Collections are recorded when the
       Department receives payment from debtors to the Federal Government. Accrual
       adjustments are made related to collections of fees and licenses.

       E. Non-Entity Assets

       Non-entity assets are those assets that are held by ATF but are not available for
       use by ATF. Non-entity assets are reported on ATF’s Consolidated Balance
       Sheets as accounts receivable, cash, and other monetary assets. Non-entity
       accounts receivable consists of taxpayer debts due to ATF. Non-entity assets
       equal non-entity liabilities. Non-entity assets are not considered a financing
       source (revenue) available to offset operating expenses of ATF.

       F. Fund Balance with U.S. Treasury and Cash

       The Department of the Treasury (Treasury) processes the Bureau’s cash receipts
       and disbursements. Entity fund balance with Treasury and cash are primarily
       appropriated funds available to pay current liabilities and to finance authorized
       purchase commitments.

       ATF does not have disbursing authority. ATF maintains cash in commercial
       banks to facilitate the replenishment of the Bureau’s imprest funds as well as
       seized cash held for evidence, and special operations.




                                           -48-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       G. Accounts Receivable

       Intragovernmental accounts receivable consist of amounts due under reimbursable
       agreements with Federal entities for services provided by ATF. Accounts
       receivable due from Federal agencies are considered to be fully collectible.
       Public accounts receivable consists of employee and vendor accounts receivable.
       An allowance for doubtful accounts is established for public accounts receivable
       when it is more likely than not that the accounts receivable will not be collected.
       The allowance is based on the debtor’s ability to pay, debtor’s payment record,
       and probability of recovery.

       H. General Property, Plant and Equipment

       Personal property and equipment purchased with a cost greater than or equal to
       $25,000 (dollars) per unit and a useful life of two years or more, is capitalized and
       depreciated. Other equipment is expensed when purchased. Real Property and
       Leasehold Improvements with a cost greater than or equal to $100,000 (dollars)
       per unit, and a useful life of two years or more, is capitalized and depreciated.
       Normal repairs and maintenance are charged to expense as incurred.

       ATF also capitalizes internal use software when costs are greater than or equal to
       $500,000 (dollars). The same threshold also applies to enhancements that add
       significant functionality to the software. ATF amortizes business software over
       seven years and personal productivity software over three years.

       As a Bureau under Treasury, ATF’s policy was to capitalize bulk purchases that
       are defined as purchases of multiple similar items that on an individual basis do
       not meet the capitalization threshold, but when purchased as a lot, exceeded
       $250,000 (dollars). This policy was consistent with Treasury’s policy. The
       Department does not have a similar policy; therefore, beginning January
       24, 2003 (the date of transfer to DOJ), such bulk purchases are no longer
       capitalized. Due to the large dollar amount of capitalized bulk purchases, ATF
       has been allowed to let them depreciate over time versus writing them off all at
       once. ATF has approximately $392 (net) of bulk purchases remaining in General
       Property, Plant and Equipment as of September 30, 2010, which will be fully
       depreciated by the end of FY 2013.




                                           -49-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       I. Advances and Prepayments

       Prepayments are payments made to individuals or other organizations to cover
       certain periodic expenses before those expenses are incurred. In accordance with
       Public Law 91-614, ATF participates in the Treasury’s Working Capital Fund
       from which it receives services on a reimbursable basis. Payments made in
       advance are authorized for services that have been deemed more advantageous
       and economical when provided centrally. Advances and prepayments involving
       other Federal agencies are classified as Other Assets on the Balance Sheet.

       ATF prepaid to the General Services Administration (GSA) $28,441 in costs
       related to the construction of its new headquarters building. Those prepaid costs
       were considered construction in progress and land acquisition when they
       occurred. ATF does not hold title to the land. The building was substantially
       complete in FY 2007 and the prepaid costs were transferred out of construction in
       progress and land and recognized as a prepayment. The prepaid costs are being
       expensed over five years in accordance with rent credits specified in the GSA
       occupancy agreement.

       J. Forfeited and Seized Property

       ATF seizes property in consequence of a violation of public law. Generally,
       seized property includes monetary instruments, various types of weapons,
       ammunition and explosives. Seized property can be held for evidence, forfeited,
       or destroyed. All property seized for evidence is maintained by ATF. ATF
       discloses the value of personal property when the individual item seized is worth
       $1,000 (dollars) or more. Seized cash is recorded as an asset under Cash and
       Monetary Assets. The offsetting liability is recorded under Seized Cash and
       Monetary Instruments.

       ATF also participates in the DOJ Assets Forfeiture Fund (the Fund). ATF is
       reimbursed by the Fund for carrying out forfeiture activities. ATF contributes
       forfeited property to the Fund. Firearms that are seized for forfeiture are either
       returned, destroyed, or placed into official use. Non-prohibited property includes
       property such as real estate, vehicles, cash, Title I Firearms (as defined in Title 18
       USC Section 922(a) (3)), ammunition and other personal property that is in itself
       legal to possess. Title 18 USC 3051 and the regulations therein prohibit the sale
       of firearms or the transfer of firearms owned by the United States to anyone other
       than another Federal government entity. ATF’s seized prohibited property
       (contraband) may include illegal drugs and untaxed liquor. All other types of
       property are legal to possess, however, the possessor may be prohibited from
       possession.



                                           -50-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       K. Liabilities

       Liabilities represent the amount of monies, or other resources, that are likely to be
       paid by ATF as the result of a transaction or event. However, no liability can be
       paid by ATF without an appropriation. Liabilities for which an appropriation has
       not been enacted, and for which there is uncertainty an appropriation will be
       enacted, are classified as liabilities not covered by budgetary resources. Also,
       liabilities of ATF arising from other than contracts can be abrogated by the
       Government acting in its sovereign capacity.

       Intragovernmental liabilities consist of amounts payable to the Treasury for
       collections of fees receivable, payables to other Federal agencies, and accrued
       FECA charges. In addition, public liabilities are amounts due to be refunded to
       taxpayers and other payables due to public vendors.

       In FY 2010 Other Liabilities consists of project generated proceeds. The proceeds
       not subject to forfeiture will be returned to the Department of the Treasury
       General Fund at the conclusion of the project.

       L. Contingencies and Commitments

       ATF is party to various administrative proceedings, legal actions, and claims.
       The balance sheet includes an estimated liability for those legal actions where
       management and the Chief Counsel consider adverse decisions “probable” and
       amounts are reasonably estimable. Legal actions where management and the
       Chief Counsel consider adverse decisions “probable” or “reasonably possible”
       and the amounts are reasonably estimable are disclosed in Note 13, Contingencies
       and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated
       or the likelihood of an unfavorable outcome is considered ‘remote”.

       M. Annual, Sick, and Other Leave

       Annual and compensatory leave earned by ATF employees, but not yet used, is
       reported as an accrued liability. Annual leave is accrued as it is earned by
       employees and is included in personnel compensation and benefit costs. An
       unfunded liability is recognized for earned but unused annual leave since from a
       budgetary standpoint, this annual leave will be paid from future appropriations
       when the leave is used by employees rather than from amounts that were
       appropriated to ATF as of the date of the financial statements. The amount
       accrued is based upon current pay rates of the employees. Sick leave and other




                                           -51-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       M. Annual, Sick, and Other Leave (continued)

       types of leave are expensed when used and no liability is recognized for these
       amounts, as employees do not vest in these benefits.

       N. Interest on Late Payments

       Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies
       must pay interest on payments for goods or services made to business concerns
       after the due date. The due date is generally 30 days after receipt of a proper
       invoice and acceptance of the goods or services.

       O. Retirement Plans

       Most ATF employees hired prior to January 1, 1984 participate in the Civil
       Service Retirement System (CSRS), to which ATF contributes 7 percent of basic
       pay (7.5 percent for those personnel classified as law enforcement agents) and the
       employee contributes 7 percent (7.5 percent for those personnel classified as law
       enforcement agents) for a total contribution rate of 14 percent in both FYs 2010
       and 2009 (15 percent for those personnel classified as law enforcement agents).
       On January 1, 1984, the Federal Employees’ Retirement System (FERS) went
       into effect pursuant to Public Law 99-335. Employees hired after December 31,
       1983 are automatically covered by FERS and Social Security. For most
       employees hired after December 31, 1983, ATF also contributes the employer’s
       matching share of Social Security. For the FERS basic benefit, the employee
       contributes 0.8 percent of basic pay (1.3 percent for those personnel classified as
       law enforcement agents) while ATF contributes 11.2 percent (24.9 percent for
       those personnel classified as law enforcement agents). The total contribution was
       12.0 percent in FYs 2010 and 2009 and (26.2 percent for those personnel
       classified as law enforcement agents). The cost of providing a FERS basic benefit
       as provided by the Office of Personnel Management (OPM) is equal to the
       amounts contributed by ATF and the employees because the plan is fully funded.

       All employees are eligible to contribute to the Thrift Savings Plan (TSP). For
       those employees participating in FERS, a TSP account is automatically
       established, and ATF makes a mandatory one percent contribution to this account.

       In addition, ATF makes matching contributions, ranging from one to four percent,
       for FERS eligible employees who contribute to their TSP accounts. Matching
       contributions are not made to the TSP accounts established by CSRS employees.




                                           -52-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       O. Retirement Plans (continued)

       ATF recognizes the full cost of providing future pension and other retirement
       benefits (ORB) for current employees as required by the Statement of Federal
       Financial Accounting Standards (SFFAS) No. 5. Full cost includes pension and
       ORB contributions paid out of Bureau appropriations and costs financed by the
       OPM. Costs financed by OPM are also reported in the accompanying financial
       statements as an imputed financing revenue source.

       Reporting amounts such as plan assets, accumulated plan benefits, or unfunded
       liabilities, if any, is the responsibility of OPM.

       P. Federal Employee Compensation Benefits

       The Federal Employees’ Compensation Act Benefits (FECA) provides income
       and medical cost protection to covered Federal civilian employees injured on the
       job and employees who have incurred a work-related injury or occupational
       disease. The future workers’ compensation estimates were generated from an
       application of actuarial procedures developed to estimate the liability for FECA
       benefits. The actuarial liability estimates for FECA benefits include the expected
       liability for death, disability, medical and miscellaneous costs for approved
       compensation cases. The liability is determined using the paid losses
       extrapolation method, which is calculated over the next 37 year period. This
       method utilizes historical benefit payment patterns related to a specific incurred
       period to predict ultimate payments related to that period. The projected annual
       benefit payments were discounted to present value.

       Claims are paid for ATF employees by the Department of Labor (DOL) from the
       FECA fund, for which ATF reimburses DOL. The accrued liability represents
       claims paid by DOL for ATF employees, for which the fund has not been
       reimbursed. The actuarial liability is an estimate of future costs to be paid on
       claims made by ATF employees. The estimated future cost is not obligated
       against budgetary resources until the year in which the cost is billed to ATF.

       Q. Intragovernmental Activity

       Intragovernmental costs and exchange revenue represent transactions made
       between two reporting entities within the Federal government. Costs and earned
       revenues with the public represent exchange transactions made between the
       reporting entity and a non-federal entity. The classification of revenue or cost as
       “intragovernmental” or “with the public” is defined on a transaction-by­




                                           -53-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       Q. Intragovernmental Activity (continued)

       transaction basis. The purpose of this classification is to enable the Federal
       government to prepare consolidated financial statements, not to match public and
       intragovernmental revenue with the costs incurred to produce public and
       intragovernmental revenue.

       R. Revenues and Other Financing Sources

               (1) Exchange Revenues

               Exchange revenues are inflows of resources to a government entity that
               the entity has earned by providing something of value to the public or
               another government entity at a price. ATF, currently, has agreements in
               place which are reimbursed through the Department of Justice Asset
               Forfeiture Fund. In addition, ATF provides a number of services
               including law enforcement, training and professional development, and
               science and information technology to other government agencies through
               reimbursable agreements. Exchange revenues are presented on the
               Consolidated Statements of Net Cost.

               Most of ATF’s exchange revenues from other government agencies are
               from an agreement with the U.S. Department of State to train explosives-
               detecting canines for foreign countries. The canines are used in foreign
               countries to combat terrorism and protect American travelers abroad.
               Similarly, ATF is funded on a reimbursable basis for activity related to
               enforcement of the Controlled Substances Act.

               (2) Nonexchange Revenues

               Nonexchange revenues are inflows of resources that the government
               demands or receives by donation. For ATF, most non-exchange revenues
               result from collecting fees from firearms and explosives industries. As
               ATF is unable to keep any of these collections, they are recognized as
               custodial revenue and a corresponding liability when collected.
               Nonexchange revenues are presented on the Combined Statements of
               Custodial Activity as all amounts are transferred to the Treasury General
               Fund.




                                           -54-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

               (3) Other Financing Sources

               Other financing sources provide inflows of resources during the reporting
               period and include appropriations used and financing imputed with respect
               to any cost subsidies. Unexpended appropriations are recognized
               separately in determining net position but are not financing sources until
               used.

               ATF receives the majority of the funding needed to support its operations
               through congressional appropriations. The appropriations received are
               annual, multi-year, and no-year funding that may be used, within statutory
               limits, for operating and capital expenditures (primarily equipment,
               furniture, and furnishings). Appropriations are also received to meet
               specific program objectives. The Bureau’s activities are funded by the
               following:

                     15100700 - Salaries and Expenses Appropriation and
                         Reimbursable Authority
                     15X0700 - No-year Appropriation for National Center for
                         Explosives Training and Research and Spectrum Relocation
                         Fund
                     15X0720 - No year Appropriation for Construction Funding
                     1509/100700 - Two-year Appropriation for High Intensity Drug
                         Trafficking Area Initiative, Ballistic Tech and Gunrunner
                         Supplemental and IRAQ Supplemental Funding
                     1509/100699 – Two-year Appropriation for Stimulus (ARRA)
                         2009/2010
                     15X8526 - Violent Crime Impact Team
                     1510/110700 – Southwest Border Supplemental
               All of these appropriations and the related gross costs, revenues, and net
               costs as shown in the Consolidated Statements of Net Cost are in Federal
               budget functional classification 750, Administration of Justice. The
               accompanying financial statements include the accounts of the above six
               Treasury symbols as well as ten expired funds which are under ATF
               control.




                                           -55-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1.   Summary of Significant Accounting Policies (continued)

               (3) Other Financing Sources (continued)

               Appropriations are recognized as a financing source at the time the related
               program or administrative expenditure is incurred. Costs financed by
               other Federal entities on behalf of ATF are recognized as imputed
               financing sources as required by SFFAS No. 5, "Accounting for Liabilities
               of the Federal Government."
               Other financing sources also include non-financial distributions, such as
               seized property, received by ATF from the DOJ Assets Forfeiture Fund.
               These resources are used in law enforcement initiatives.

        S. Earmarked Funds

        Statement of Federal Financial Accounting Standards (SFFAS) No. 27,
        “Identifying and Reporting Earmarked Funds” defines ‘earmarked funds’ as being
        financed by specifically identified revenues, often supplemented by other
        financing sources, which remain available over time. These specifically identified
        revenues and other financing sources are required by statute to be used for
        designated activities, benefits, or purposes, and must be accounted for separately
        from the Government’s general revenues. The three required criteria for an
        earmarked fund are:

               1. 	   A statute committing the Federal Government to use specifically
                      identified revenues and other financing sources only for
                      designated activities, benefits, or purposes;
               2. 	   Explicit authority for the earmarked fund to retain revenues and
                      other financing sources not used in the current period for future use
                      to finance the designated activities, benefits, or purposes; and
               3. 	   A requirement to account for and report on the receipt, use, and
                      retention of the revenues and other financing sources that
                      distinguishes the earmarked fund from the Government’s general
                      revenues.

        ATF does not have any funds that meet the definition of an Earmarked Fund.

        T. Tax Exempt Status

        As an agency of the Federal Government, ATF is exempt from all income taxes
        imposed by any governing body whether it be a Federal, state, commonwealth,
        local, or foreign government.




                                           -56-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       U. Use of Estimates

       The preparation of financial statements requires management to make certain
       estimates and assumptions that affect the reported amounts of assets and liabilities
       and the reported amounts of revenue and expenses during the reporting period.
       Actual results could differ from those estimates.

       V. Reclassifications

       The FY 2009 financial statements were reclassified to conform to the FY 2010
       Departmental financial statement presentation requirements. The reclassifications
       had no material effect on total assets, liabilities, net position, change in net
       position or budgetary resources as previously reported.

       W. Subsequent Events

       Subsequent events and transactions occurring after September 30, 2010 through
       the date of the auditors’ opinion have been evaluated for potential recognition or
       disclosure in the financial statements. The date of the auditors’ opinion also
       represents the date that the financial statements were available to be issued.




                                           -57-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


2. Non-Entity Assets

Non-entity assets are assets that are held by ATF but are not available for use by ATF.
Non-entity assets are primarily project-generated proceeds and seized cash.

As of September 30, 2010 and 2009
                                               2010             2009
With the Public
 Cash and Monetary Assets                  $     44,372     $      2,436
    Total Entity Assets                         517,362          498,276
    Total Assets                           $    561,734     $    500,712




       .




                                           -58-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


3. Fund Balance with U.S. Treasury

As of September 30, 2010 and 2009
                                                          2010           2009
 Fund Balances
   Trust Funds                                        $     1,029    $     1,050
   General Funds                                          260,107        256,382
     Total Fund Balances with U.S. Treasury           $   261,136    $   257,432

 Status of Fund Balances
   Unobligated Balance - Available                $        53,461    $    44,648
   Unobligated Balance - Unavailable                       56,670         37,547
   Obligated Balance not yet Disbursed                    155,645        179,142
   Other Funds (With)/Without Budgetary Resources          (4,640)        (3,905)
     Total Status of Fund Balances                $       261,136    $   257,432


As of September 30, 2010 and 2009, Other Funds (With)/Without Budgetary Resources
consisted of amounts held in other entity funds as Agent Cashier.




                                           -59-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


4. Cash and Monetary Assets

As of September 30, 2010 and 2009
                                               2010             2009
 Cash
   Imprest Funds                           $       4,637    $     3,905
   Other Cash                                     41,362              -
                                                  45,999          3,905
 Monetary Assets
  Seized Monetary Instruments                      3,010          2,436
    Total Cash and Monetary Assets         $      49,009    $     6,341



Cash available for ATF use represents agent cashier (imprest) funds. The agent cashier
funds are used to finance the purchase of evidence and information from informants in
open ATF investigations and enforcement operations. Other Cash consists of project –
generated proceeds from undercover operations.


5. Accounts Receivable

As of September 30, 2010 and 2009
                                               2010             2009
Intragovernmental
   Accounts Receivable                     $      28,291    $     18,612

With the Public
 Accounts Receivable                                 203             159
 Allowance for Uncollectible Accounts                (41)            (60)
    Total With the Public                            162              99
    Total Accounts Receivable              $      28,453    $     18,711


Intragovernmental accounts receivable consist of amounts due under reimbursable
agreements with Federal entities for services provided by ATF. Accounts receivable due
from Federal agencies are considered to be fully collectible. Public accounts receivable
consist of employee and vendor accounts receivables.




                                           -60-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property

Property is seized during the course of an investigation. This property is considered
contraband, evidence of a crime, or subject to forfeiture. All seized for forfeiture
property is reported by the DOJ Assets Forfeiture Fund. The seized for evidence
personal property category includes computers, vehicles, and other miscellaneous items.
Other seized property includes monetary instruments, handguns, machine guns, rifles and
shotguns. Seized property that will be destroyed such as firearms, is reported as the
number of items seized, and is not considered to have a value.

Seized monetary instruments were valued at $3,010 as of September 30, 2010, and
$2,436 as of September 30, 2009. Seized cash deposited is recorded as an asset under
cash and monetary assets along with the offsetting liability under seized cash and
monetary instruments.

In accordance with Departmental guidance, personal property seized for evidentiary
purposes is disclosed when an individual item has a market value at the time of seizure of
$1,000 (dollars) or more. ATF adopted the Department’s $1,000 (dollars) disclosure
threshold in FY 2009. Prior to FY 2009, ATF disclosed all individual seizures regardless
of value. The effect of this change to conform to Departmental guidance is shown in FY
2009 in the “adjustments” column.




                                           -61-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property (continued)

For the Fiscal Year Ended September 30, 2010

   Seized Property             Beginning    Adjust­                             Ending
      Category                  Balance     ments*     Seizures Disposals       Balance

Seized for Evidence

Seized Cash Deposited
and Seized Monetary
Instruments           Value    $    2,436   $      -   $ 8,528     $ 7,954 $       3,010

Personal Property     Number          180          1         13          17          177
                      Value  $      1,886   $     11   $     84    $    256 $      1,725
                                                                   $      -
Non-Valued
Firearms              Number       14,174          -       5,213       5,942      13,445


* Adjustments include property status and valuation changes received after, but properly
  credited to FY 2009.


For the Fiscal Year Ended September 30, 2009

   Seized Property             Beginning    Adjust-                             Ending
      Category                  Balance     ments*     Seizures Disposals       Balance


Seized for Evidence

Seized Cash Deposited
and Seized Monetary
Instruments           Value    $    3,784              $ 6,237     $ 7,585 $       2,436

Personal Property     Number       50,640   (50,604)       163           19          180
                      Value  $        504              $ 1,725     $    343 $      1,886
Non-Valued
Firearms              Number       15,342          -       5,538       6,706      14,174


* Adjustments include property status and valuation changes received after, but properly
  credited to FY 2008.




                                                -62-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property (continued)


Method of Disposition of Seized Property:

Items seized for evidence during fiscal years FY 2010 and FY 2009, were 5,959, with a
value of $256, and 6,725 with a value of $343, respectively, were returned to parties with
a bonafide interest or disposed of by other means. Additionally, $7,954 and $7,585 of
seized cash was returned in FY 2010 and FY 2009, respectively. All property seized as
evidence was generally returned to the person from whom it was seized or to their
designee. If items were not returned, they were destroyed, donated, transferred, sold or
liquidated. However, evidence may be destroyed if its value is less than $250 dollars
and, after due diligence, the special agent has not found the person from whom it was
seized or their designee.

Analysis of Drug Evidence:

Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug
evidence because unanalyzed drug evidence includes the weight of packaging and drug
categories are based on the determination of Special Agents instead of laboratory
chemists. For these reasons, unanalyzed drug evidence is not reported by ATF.




                                           -63-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


7. General Property, Plant and Equipment, Net

 As of September 30, 2010                Acquisition   Accumulated    Net Book    Service
                                           Cost        Depreciation    Value       Life
 Land and Land Rights                    $   3,200      $         ­   $ 3,200      N/A
 Improvements to Land                        4,518           (552)        3,966   15 yrs
 Construction in Progress                   30,397                -     30,397     N/A
 Buildings, Improvements, and
    Renovations                            104,897        (20,224)       84,673 40 yrs
 Vehicles                                   42,131        (27,684)       14,447 3-6 yrs
 Equipment                                  91,139        (82,241)        8,898 3-10 yrs
 Assets Under Capital Lease                  5,550         (2,466)        3,084 5-6 yrs
 Leasehold Improvements                    112,649        (66,926)       45,723 2-20 yrs
 Internal Use Software                      19,048         (9,182)        9,866 3-7 yrs
 Internal Use Software in Development        2,864              -         2,864    N/A
 Total                                   $ 416,393     $ (209,275)    $ 207,118


 As of September 30, 2009                Acquisition   Accumulated    Net Book    Service

                                           Cost        Depreciation    Value       Life

 Land and Land Rights                    $   3,200      $         ­   $ 3,200      N/A

 Improvements to Land                        4,518           (251)        4,267   15 yrs
 Construction in Progress                   15,414                -     15,414     N/A
 Buildings, Improvements, and
    Renovations                            104,883        (17,633)       87,250 40 yrs
 Vehicles                                   37,621        (28,958)        8,663 3-6 yrs
 Equipment                                  99,532        (87,431)       12,101 3-10 yrs
 Assets Under Capital Lease                  5,378         (1,796)        3,582 5-6 yrs
 Leasehold Improvements                    109,348        (57,863)       51,485 2-20 yrs
 Internal Use Software                      12,864         (7,104)        5,760 3-7 yrs
 Internal Use Software in Development        4,959              -         4,959    N/A
 Total                                   $ 397,717     $ (201,036)
   $ 196,681




                                           -64-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


7. General Property, Plant and Equipment, Net (continued)

PP&E Net Changes During 2010 and 2009

                                                    2010              2009
Net Changes from Federal Sources
   Construction in Progress                     $ 16,001         $ 11,856
   Improvements to Land                                -            2,075
   Buildings, Improvements, and Renovations           14            1,586
   Vehicles                                        3,407            3,235
   Equipment                                         651            2,513
   Leasehold Improvements                          1,635            1,823
   Internal Use Software                             741              717
     Total purchased from Federal Sources       $ 22,449         $ 23,805

Net Changes from the Public
   Construction in Progress                     $    468          $  (348)
   Buildings, Improvements, and Renovations            -              357
   Equipment                                       4,837            2,076
   Assets Under Capital Lease                        173            5,378
   Leasehold Improvements                            180              751
   Internal Use Software                           3,347            4,251
     Total purchased from the Public
              9,005           12,465
   Total Capitalized Purchases
                 $ 31,454         $ 36,270




Depreciation and amortization are calculated using the straight-line method. Leasehold
improvements are amortized over the lesser of the life of the lease or useful life of the
asset. ATF owns land located in Ammendale, Maryland that is recorded at its acquisition
value. There are no restrictions on the use or convertibility of property and equipment.

The National Center for Explosive Research is currently under construction at the
Redstone Arsenal with costs to date of $29 million and new costs in FY 2010 of $15
million.




                                           -65-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


8. Other Assets

As of September 30, 2010 and 2009
                                                          2010          2009
Intragovernmental
    Advances and Prepayments                          $    14,294   $    20,584
    Other Intragovernmental Assets                             55           110
      Total Other Assets                              $    14,349   $    20,694


As of September 30, 2010, prepayments consisted of $11,376 to General Services
Administration (GSA), $2,862 to Treasury Working Capital Fund (WCF) and $56 to
Department of Defense. The remaining $55 was due to ATF from Treasury’s General
Fund. September 30, 2009, prepayments consisted of $17,065 to GSA, $3,206 to WCF,
and $313 to State Department. The remaining $110 was due to ATF from Treasury’s
General Fund.




                                           -66-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


9. Liabilities not Covered by Budgetary Resources

As of September 30, 2010 and 2009
                                                              2010             2009
Intragovernmental
   Accrued FECA Liabilities                               $    19,567      $     19,751
   Other Post-Employment Benefits Due and Payable                  58                46
   Other Unfunded Employment Related Liabilities                   32                40
     Total Intragovernmental                                   19,657            19,837

With the Public
 Actuarial FECA Liabilities                                   107,012           105,498
 Accrued Annual and Compensatory Leave Liabilities             52,408            48,600
 Contingent Liabilities (Note 13)                               3,505             3,500
    Total With the Public                                     162,925           157,598
    Total Liabilities not Covered by Budgetary Resources      182,582           177,435
    Total Liabilities Covered by Budgetary Resources          147,711           106,501
    Total Liabilities                                    $    330,293      $    283,936

Generally, liabilities not covered by budgetary resources are liabilities for which
Congressional action is needed before budgetary resources can be provided. However,
some liabilities do not require appropriations and are liquidated by the assets of the
entities holding these liabilities. These are liabilities related to future employee and
contingent related expenses.




                                           -67-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


10.   Leases

Capital Leases                                             2010         2009

Summary of Assets Under Capital Lease
   Machinery and Equipment                             $    5,550     $ 5,378
   Accumulated Depreciation                                 2,466       1,796
    Total Assets Under Capital Lease (Note 7)          $    3,084     $ 3,582

Future Capital Lease Payments Due
                                                      Machinery and
Fiscal Year                                            Equipment
2011                                                       1,030
2012                                                         884
2013                                                         557
     Total Future Capital Lease Payments               $ 2,471
Less: Imputed Interest                                        (62)
Less: Executory Costs                                       (534)
 FY 2010 Net Capital Lease Liabilities                 $ 1,875
 FY 2009 Net Capital Lease Liabilities                 $ 3,241

                                                                       2010          2009
Net Capital Lease Liabilities Covered by Budgetary Resources          $ 1,875       $ 3,241




The capital leases are comprised of three computer servers and 257 postage meters and
associated equipment. The total capital asset value is $5,550 with accumulated
depreciation of $2,466. For FY 2010, capital lease liability for machinery and equipment
was $1,875. ATF expects to own the computer servers at the end of the lease period.
The postal equipment, with the exception of the meters, is leased to own. The meters
remain property of the United States Postal Service.

ATF has completed lease payments on two servers, which will continue to be depreciated
until the end of their useful life. The lease on the third server will amortize through FY
2012 and includes a bargain purchase price of $37. The postal lease amortizes through
FY 2013.




                                           -68-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


10. Leases (continued)

As of September 30, 2010 and 2009

Operating Lease Expenses

Lease Type                                      2010             2009
   Noncancelable Operating Leases           $      2,432   $          987
   Cancelable Operating Leases                   123,800          121,707
       Total Operating Lease Expenses       $    126,232   $      122,694




Future Operating Lease Payments Due:

Fiscal Year                                                    Buildings

2011                                                       $         2,450
2012                                                                 2,468
2013                                                                 2,487
2014                                                                 2,506
2015                                                                 2,525
After 2015                                                           5,086
    Total Future Noncancelable Operating
        Lease Payments                                     $       17,522



The operating leases are comprised of machinery, equipment, buildings, copiers,
computers, and other office equipment. For FY 2010, the cancelable operating leases
expense for buildings was $71,463 and for machinery and equipment was $52,337. For
FY 2009, the cancelable operating leases expense for buildings was $77,929 and for
machinery and equipment was $43,778.




                                           -69-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


11. Seized Cash and Monetary Instruments

ATF’s seized monetary instruments were $3,010 as of September 30, 2010, and $2,436 as
of September 30, 2009. All of this cash is seized in the course of law enforcement
activities and is held as evidence pending the outcome of any criminal proceedings.




                                           -70-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


12. Other Liabilities

As of September 30, 2010 and 2009
                                                            2010             2009
Intragovernmental
   Employer Contributions and Payroll Taxes Payable     $      9,303     $      8,246
   Other Post-Employment Benefits Due and Payable                 58               46
   Other Unfunded Employment Related Liabilities                  32               40
     Total Intragovernmental                                   9,393            8,332

With the Public
 Accrued Liabilites - Taxpayer/Licensee                          54               110
 Other Liabilities                                           41,362                 -
    Total the Public                                         41,416               110
    Total Other Liabilities                             $    50,809      $      8,442

All Other Liabilities are considered current. In FY 2010 Other Liabilities, with the
public, consists of project generated proceeds. The proceeds not subject to forfeiture will
be returned to the Department of the Treasury General Fund at the conclusion of the
project.




                                           -71-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


13. Contingencies and Commitments

                                        Accrued           Estimated Range of Loss
                                        Liabilities       Lower           Upper
 As of September 30, 2010
     Probable                       $        3,505    $      3,505     $     3,505
     Reasonably Possible                                     6,000           6,000

 As of September 30, 2009
     Probable                       $        3,500    $      3,500     $     3,500
     Reasonably Possible                                     7,501           7,501




                                              -72-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


14. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2010
                                                  Suborganizations

                                                     Explosives Alcohol and
                                       Firearms      and Arson Tobacco Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Cost of Operations                  $     2,339   $     4,785   $      61    $      7,185

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
       American People
   Gross Cost                              948,958       292,182       24,794       1,265,934
   Less: Earned Revenue                     68,189        21,566        1,404          91,159
   Net Cost (Revenue) of Operations        880,769       270,616       23,390       1,174,775

Net Cost (Revenue) of Operations       $ 883,108 $ 275,401         $ 23,451     $ 1,181,960




                                             -73-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


14. Net Cost of Operations by Suborganization (continued)

For the Fiscal Year Ended September 30, 2009
                                                  Suborganizations

                                                     Explosives Alcohol and
                                       Firearms      and Arson Tobacco Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Cost of Operations                  $     2,441   $     5,810   $      70    $      8,321

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
       American People
   Gross Cost                              847,866       284,267       21,185       1,153,318
   Less: Earned Revenue                     40,833        14,004          719          55,556
   Net Cost (Revenue) of Operations        807,033       270,263       20,466       1,097,762

Net Cost (Revenue) of Operations       $ 809,474 $ 276,073         $ 20,536     $ 1,106,083

ATF activity primarily supports DOJ’s goal to Prevent Crime, Enforce Federal Laws, and
Represent the Rights and Interests of the American People. ATF activity in the Joint
Terrorism Task Force and the Terrorist Device Analysis Center supports DOJ’s goal to
Prevent Terrorism and Promote the Nation’s Security. Revenue is not associated with
this goal.




                                             -74-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


15. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-
reimbursed and under reimbursed) portion of the full costs of goods and services received
by ATF from a providing entity that is not part of the U.S. Department of Justice. In
accordance with SFFAS No. 30, “Inter-Entity Cost Implementation Amending SFFAS
No. 4, Managerial Cost Accounting Standards and Concepts”, the material Imputed
Inter-Departmental financing sources recognized by ATF are the actual cost of future
benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are
paid by other Federal entities, and any un-reimbursed payments made from the Treasury
Judgment Fund on behalf of ATF. The Treasury Judgment Fund was established by the
Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments
and settlement agreements negotiated by the Department on behalf of agencies, as well as
certain types of administrative awards. Interpretation of Federal Financial Accounting
Standards Interpretation No. 2, “Accounting for Treasury Judgment Fund Transactions,”
requires agencies to recognize liabilities and expenses when unfavorable litigation
outcomes are probable and the amount can be estimated and will be paid by the Treasury
Judgment Fund.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that
employing agencies recognize the cost of pensions and other retirement benefits during
their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits
expected to be paid in the future, and then determine the total funds to be contributed by
and for covered employees, such that the amount calculated would be sufficient to fund
the projected pension benefits. For employees covered by Civil Service Retirement
System (CSRS), the cost factors are 30.1% of basic pay for regular, 51.1% law
enforcement officers, 23.5% regular offset, and 45.6% law enforcement officers offset.
For employees covered by Federal Employees Retirement System (FERS), the cost
factors are 13.8% of basic pay for regular and 29.8% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee
and employer contributions. In addition, other retirement benefits, which include health
and life insurance that are paid by other Federal entities, must also be disclosed. Those
costs determined to be material are presented in the table below.




                                           -75-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


15. Imputed Financing Costs Absorbed by Others (continued)

For the Fiscal Years Ended September 30, 2010 and 2009
                                                           2010              2009
Imputed Inter-Departmental Financing
    Treasury Judgment Fund                             $      1,246      $        386
    Health Insurance                                         25,445            25,362
    Life Insurance                                              107               102
    Pension                                                  12,466             7,276
        Total Imputed Inter-Departmental               $     39,264      $     33,126

The Treasury Judgment Fund payments for FY 2010 and FY 2009 were $1,246 and $386,
respectively; these amounts were paid by the Fund on behalf of the ATF.

ATF does not report CSRS assets, FERS assets, accumulated plan benefits or unfunded
liabilities, if any, applicable to retirement plans because the accounting for and reporting
of such amounts is the responsibility of OPM. Based on cost factors provided by OPM,
estimated future pension benefits for ATF employees, to be paid by OPM as of
September 30, 2010 and September 30, 2009, total $12,466 and $7,276, respectively.
Similarly, OPM, rather than ATF, reports liabilities for future payments to retired
employees who participate in the Federal Employee Health Benefits Program (FEHBP)
and the Federal Employee Group Life Insurance (FEGLI) Program. The FY 2010 and
FY 2009 FEHBP cost factors applied to a weighted average number of employees
enrolled in the FEHBP was $1,517 (dollars) and $1,403 (dollars), respectively, which
produced a $25,445 and $25,362 imputed cost, respectively. The FY 2010 and FY 2009
FEGLI cost factor for employees enrolled in the FEGLI program, as provided by OPM,
was .02 percent of their basic pay. The FEGLI amounts totaling $107 at September 30,
2010, and $102 at September 30, 2009 were also included as an expense and imputed
financing source in ATF’s financial statements.

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4,
“Managerial Cost Accounting Concepts and Standards for the Federal Government,” are
the unreimbursed portion of the full costs of goods and services received by ATF from a
providing entity that is part of the U.S. Department of Justice. Recognition is required for
those transactions determined to be material to the receiving entity. The determination of
whether the cost is material requires considerable judgment based on the specific facts
and circumstances of each type of good or service provided. SFFAS No. 4 also states that
costs for broad and general support need not be recognized by the receiving entity, unless
such services form a vital and integral part of the operations or output of the receiving
entity. Costs are considered broad and general if they are provided to many, if not all,
reporting components and not specifically related to the receiving entity’s output. ATF
does not have any imputed Intra-Departmental financing sources.




                                           -76-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The amount of direct and reimbursable obligations against amounts apportioned under
Category A and B are reported in the table below. The apportionment categories are
determined in accordance with the guidance provided in Part 4 of OMB Circular A-11,
“Preparation, Submission and Execution of the Budget.” Category A represents
resources apportioned for calendar quarters. Category B represents resources
apportioned for other time periods; for activities, projects, and objectives or for a
combination thereof.

                                                                                       Total
                                                       Direct
       Reimbursable   Obligations
                                                      Obligations
    Obligations    Incurred

For the Fiscal Year Ended September 30, 2010
  Obligations Apportioned Under

    Category A
                                   $ 1,153,606        $   102,650    $ 1,256,256
    Category B
                                         1,878                  -          1,878
  Total                                           $ 1,155,484        $   102,650    $ 1,258,134

For the Fiscal Year Ended September 30, 2009
  Obligations Apportioned Under

    Category A
                                   $ 1,125,403        $    94,032    $ 1,219,435
    Category B
                                         7,161                  -          7,161
  Total                                           $ 1,132,564
       $    94,032    $ 1,226,596




                                           -77-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which
have not been actually or constructively received. This amount includes any orders
which may have been prepaid or advanced but for which delivery or performance has not
yet occurred.

As of September 30, 2010 and 2009
                                                      2010             2009

     UDO Obligations Unpaid                       $   124,631      $    137,637
     UDO Obligations Prepaid/Advanced                  15,963            21,437
      Total UDO                                   $   140,594      $    159,074


Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not
obligated and that remains available for obligation based on annual legislative
requirements and other enabling authorities, unless otherwise restricted. The use of
unobligated balances is restricted based on annual legislation requirements and other
enabling authorities. Funds are appropriated on an annual, multi-year, and no-year basis.
Appropriated funds shall expire on the last day of availability and are no longer available
for new obligations. Unobligated balances in unexpired fund symbols are available in the
next fiscal year for new obligations unless some restrictions had been placed on those
funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.




                                           -78-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs the Budget of the United States Government:

The reconciliation as of September 30, 2010, is not presented because the submission of
the Budget of the United States Government (Budget) for FY 2012, which presents the
execution of the FY 2010 Budget, occurs after publication of these financial statements.
The Department of Justice Budget Appendix can be found on the OMB website
(http://www.whitehouse.gov/omb/budget) and should be available by early February
2011.

      For the Fiscal Year Ended September 30, 2009
        (Dollars in millions )                                             Distribut ed
                                                Budgetary    Obligations   Offsetting      Net
                                                 Resources    Incurred      Receipts      Outlays

      Statement of Budgetary Resources (SBR)      $ 1,309    $ 1,227       $         -    $ 1,062

      Funds not Reported in the Budget
        Expired Funds                                 (78)         (56)




      Budget of the United States Government      $ 1,231    $ 1,171       $         -    $ 1,062




                                               -79-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


17.   Net Custodial Revenue Activity

As an agent of the federal government and as authorized by 26 U.S.C. § 6301, ATF
collects fees from firearms and explosives industries, as well as import, permit and
license fees. In addition, Special Occupational Taxes are collected from certain firearms
businesses. As ATF is unable to use these collections in its operations, ATF is required
to transfer these collections to the Treasury General Fund. The ATF custodial collections
totaled $14,674 and $14,529 for the fiscal years ended September 30, 2010 and 2009,
respectively.

These collections represent the balances in the Combined Statements of Custodial
Activity. These authorities are granted under the Gun Control Act, Title XI of the
Organized Crime Control Act of 1970, and the Safe Explosives Act. All authorities
granted by these laws were transferred from the Department of the Treasury to the
Department of Justice under the Homeland Security Act of 2002.

All of the fees collected by ATF net of related refund disbursements are remitted to the
Treasury General Fund. The Treasury further distributes this revenue to Federal agencies
in accordance with various laws and regulations. There were no custodial liabilities as of
September 30, 2010 and 2009.




                                           -80-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


18. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

For the Fiscal Years Ended September 30, 2010 and 2009
                                                                              2010           2009

Resources Used to Finance Activities

   Budgetary Resources Obligated
     Obligations Incurred                                                  $ 1,258,134    $ 1,226,596
     Less: Spending Authority from Offsetting Collections and
        Recoveries                                                             131,116        169,958
     Obligations Net of Offsetting Collections and Recoveries                1,127,018      1,056,638
     Less: Offsetting Receipts                                                     622            247
     Net Obligations                                                         1,126,396      1,056,391

   Other Resources
      Transfers-In/Out Without Reimbursement                                     2,407          2,173
      Imputed Financing from Costs Absorbed by Others (Note 15)                 39,264         33,126
      Net Other Resources Used to Finance Activities                            41,671         35,299
Total Resources Used to Finance Activities                                  1,168,067      1,091,690

Resources Used to Finance Items not Part of the Net Cost of
   Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
         and Benefits Ordered but not Yet Provided                              19,989         17,972
      Resources That Fund Expenses Recognized in Prior Periods (Note 19)          (192)           (86)
      Budgetary Offsetting Collections and Receipts That do not
         Affect Net Cost of Operations                                             622            247
      Resources That Finance the Acquisition of Assets                         (31,454)       (36,270)
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                               (11,035)       (18,137)

Total Resources Used to Finance the Net Cost of Operations                 $ 1,157,032    $1,073,553




                                           -81-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


18. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)


For the Fiscal Years Ended September 30, 2010 and 2009
                                                                          2010            2009

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

   Components That Will Require or Generate Resources
      in Future Periods (Note 19)                                     $      5,276    $     6,754

      Depreciation and Amortization                                         21,466         20,787
      Revaluation of Assets or Liabilities                                  (1,814)         4,989

Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                      24,928         32,530

Net Cost of Operations                                                $ 1,181,960     $1,106,083




                                             -82-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


19. Explanation of Differences Between Liabilities not Covered by Budgetary
Resources and Components of Net Cost of Operations Requiring or Generating
Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not
certainty that budgetary authority will be realized, such as the enactment of an
appropriation, are considered liabilities not covered by budgetary resources. These
liabilities totaling $182,582 and $177,435 on September 30, 2010 and 2009, respectively,
are discussed in Note 9, Liabilities not Covered by Budgetary Resources. Decreases in
these liabilities result from current year budgetary resources that were used to fund
expenses recognized in prior periods. Increases in these liabilities represent unfunded
expenses that were recognized in the current period. These increases, which are not
considered budgetary resources until collected, represent components of current period
net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2010 and 2009
                                                                              2010          2009
Resources that Fund Expenses Recognized in Prior Periods
  Decrease in Accrued FECA Liabilities                                          (184)            ­
  Decrease in Other Unfunded Employment Related Liabilities                       (8)          (86)
    Total Resources that Fund Expenses Recognized in Prior Periods        $     (192)   $      (86)

Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
  Increase in Accrued Annual and Compensatory Leave Liabilities        $ 3,808       $ 3,704
  Other
    Increase in Actuarial FECA Liabilities                                1,514          2,676
    Increase in Other Post Employment Benefits Due & Payable                  12            46
    Increase in Accrued FECA Liabilities                                       -           215
    Increase in Contingent Liabilities                                         5             ­
    Decrease/(Increase) in Receivable from the Public                       (63)           113
      Total Other                                                         1,468          3,050

       Total Components of Net Cost of Operations That Will Require
        or Generate Resources in Future Periods                           $    5,276    $     6,754




                                           -83-
This page intentionally left blank.





               -84-
Required Supplementary Information 

             Unaudited 





              -85-
                                                                               U.S. Department of Justice

                                                                  Bureau of Alcohol, Tobacco, Firearms and Explosives

                                                                         Required Supplementary Information

                                                                     Combining Statement of Budgetary Resources

                                                                                       Unaudited

                                                          For the Fiscal Year Ended September 30, 2010                      For the Fiscal Year Ended September 30, 2009

Dollars in Thousands                                                                    2010                                                       2009

Budgetary Resources	                                              Appropriated        Trust Funds           Cumulative      Appropriated         Trust Funds           Cumulative

  Unobligated Balance, Brought Forward, October 1             $          81,166   $            1,029    $        82,195   $	       52,942    $            1,029    $        53,971

  Recoveries of Prior Year Unpaid Obligations	                           38,221                     -            38,221            80,237                      5            80,242

  Budget Authority
     Appropriations Received                                          1,158,272                     -         1,158,272         1,068,215                      -         1,068,215
     Spending Authority from Offsetting Collections
        Earned
            Collected                                                    81,707                     -            81,707            61,800                      -            61,800
            Change in Receivables from Federal Sources                    9,679                     -             9,679            (5,500)                     -            (5,500)
         Change in Unfilled Customer Orders                                   ­
            Without Advance from Federal Sources                          1,509                     -             1,509            33,421                      -            33,421
  Subtotal Budget Authority                                           1,251,167                     -         1,251,167         1,157,936                      -         1,157,936

  Nonexpenditure Transfers, Net, Anticipated and Actual                  (3,318)                    -            (3,318)           16,647                     -             16,647
Total Budgetary Resources	                                    $       1,367,236 $              1,029    $     1,368,265 $       1,307,762    $            1,034    $     1,308,796




                                                                                            -86-
                                                                                           U.S. Department of Justice

                                                                               Bureau of Alcohol, Tobacco, Firearms and Explosives

                                                                                      Required Supplementary Information

                                                                             Combining Statement of Budgetary Resources (Continued)

                                                                                                   Unaudited


                                                                  For the Fiscal Year Ended September 30, 2010                         For the Fiscal Year Ended September 30, 2009

Dollars in Thousands                                                                                 2010                                                  2009

Status of Budgetary Resources

   Obligations Incurred

      Direct
                                                                   $ 1,155,484    $         -   $      1,155,484   $      1,132,564    $              -   $       1,132,564
      Reimbursable
                                                                 102,650              -            102,650             94,032                   -              94,032
          Total Obligations Incurred 
                                            1,258,134              -          1,258,134          1,226,596                   -           1,226,596
   Unobligated Balance - Available

      Apportioned
                                                                    53,461            -              53,461             44,648                -                 44,648
          Total Unobligated Balance - Available
                                      53,461            -              53,461             44,648                -                 44,648
   Unobligated Balance not Available
                                                 55,641        1,029              56,670             36,518            1,029                 37,547

Total Status of Budgetary Resources                                             $ 1,367,236    $    1,029    $      1,368,265   $      1,307,762    $       1,029      $       1,308,791


Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
   Obligated Balance Transferred, Net (Note 20)

      Unpaid Obligations
                                                       $     238,351 $         -    $        238,351 $          215,881                  21   $         215,902
      Less: Uncollected Customer Payments from Federal Sources
                        59,209           -              59,209             31,288                   -              31,288
          Total Unpaid Obligated Balance, Net - Brought Forward, October 1            179,142           -             179,142            184,593                  21             184,614
   Obligations Incurred                                                             1,258,113          21           1,258,134          1,226,596                   -           1,226,596
   Less: Gross Outlays                                                              1,232,201          21           1,232,222          1,123,910                   -           1,123,910
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                           38,221           -              38,221             80,237                   -              80,237
   Change in Uncollected Customer Payments from Federal Sources                       (11,188)          -             (11,188)           (27,921)                  -             (27,921)

   Obligated Balance, Net - End of Period

      Unpaid Obligations
                                                            226,042             -            226,042            238,330                  21             238,351
      Less: Uncollected Customer Payments from Federal Sources
                       70,397             -             70,397             59,209                   -              59,209
         Total Unpaid Obligated Balance, Net - End of Period                    $    155,645   $         -   $        155,645   $        179,121    $             21   $         179,142

Net Outlays
   Gross Outlays
                                                               $ 1,232,201    $       21    $      1,232,222   $      1,123,910    $              -   $       1,123,910
   Less: Offsetting Collections
                                                     81,707             -              81,707             61,800                   -              61,800
   Less: Distributed Offsetting Receipts
                                               622             -                 622                247                   -                 247
Total Net Outlays                                                               $ 1,149,872    $       21    $      1,149,893   $      1,061,863    $              -   $       1,061,863




                                                                                                     -87-
This page intentionally left blank.





               -88-
Appendix




 -89-
This page intentionally left blank.





               -90-
                                                                  APPENDIX


              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
             1B




               NECESSARY TO CLOSE THE REPORT

      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF). ATF’s
response is incorporated in the Independent Auditors’ Report on Internal
Control over Financial Reporting of this final report. T he following provides
the OIG analysis of the response and summary of actions necessary to close
the report.

Recommendation Number:

1.	   Resolved. This recommendation can be closed when subsequent
      financial statement audit testing verifies that ATF has established
      stronger oversight controls for processing accounts payable,
      obligation, and deobligation transactions.




                                     -91-
